No. __________

IN THE
SUPREME COURT OF THE UNITED STATES

SCOTT TUCKER, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Beverly Van Ness (NY 1409416)
Attorney-at-Law
233 Broadway, Suite 2704
New York, NY 10279
Tel. (212) 274-0402
bvanness.law@gmail.com

Attorney for Petitioner SCOTT TUCKER

QUESTIONS PRESENTED
1.

Whether the Court of Appeals has endorsed an inflexible rule that

limits evidence of legal advice rendered to the defendant to the very inception of
the charged conduct. This rule, which provides an unfair advantage to the
government, conflicts with decisions in other circuits.
2.

Whether lower courts need guidance from the Supreme Court on a

recurring subject as to which different rules have developed: the admissibility of
expert testimony that involves matters of law, but does not usurp the district
court’s role in instructing the jury on the law applicable to the case.
3.

Whether there is a need for a uniform mens rea element in

racketeering prosecutions for the collection of unlawful debt. At present, there is a
conflict among the circuits, and different positions will lead to disparate results, in
violation of due process.

i

TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
OPINION BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A.

Proceedings Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

B.

Statement of Relevant Facts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

C.

1.

The Government’s Case and Petitioner’s Defense . . . . . . . . . . . . . . 3

2.

Additional Facts Relevant to Questions Presented . . . . . . . . . . . . . . 8

The Direct Appeal to the Court of Appeals . . . . . . . . . . . . . . . . . . . . . . . . 12
1.

The Mens Rea Element for Collection of Unlawful Debt . . . . . . . . 12

2.

Preclusion of Advice-of-Counsel Evidence
and Expert Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

REASONS FOR GRANTING THE PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . 15
I.

The Court of Appeals has endorsed an inflexible rule that limits
evidence of legal advice rendered to the defendant to the very
inception of the charged conduct. This rule, which provides an
unfair advantage to the government, conflicts with decisions
ii

in other circuits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
II.

Lower courts need guidance from the Supreme Court on a
recurring subject as to which different rules have developed:
the admissibility of expert testimony that involves matters of
law, but does not usurp the district court’s role in instructing
the jury on the law applicable to the case . . . . . . . . . . . . . . . . . . . . . 19

III.

There is a need for a uniform mens rea element in racketeering
prosecutions for the collection of unlawful debt. At present,
there is a conflict among the circuits, and different positions
will lead to disparate results, in violation of due process . . . . . . . . 22

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
APPENDIX
Court of Appeals’ Opinion, United States v. Grote, 961 F.3d 105
(2d Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Petitioner’s Petition for Panel Rehearing (July 30, 2020). . . . . . . . . . . . . 16a
Court of Appeals’ Order Denying Rehearing (August 20, 2020) . . . . . . 27a
Court of Appeals’ Supplemental Order (October 22, 2020) . . . . . . . . . . 28a

iii

TABLE OF AUTHORITIES
CASES
Chambers v. Mississippi, 410 U.S. 284 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Commodores Entm’t Corp. v. McClary, 879 F.3d 1114 (11th Cir. 2018) . . . . . . 20
Krausz Indus. Ltd. v. Smith-Blair, Inc., 2016 U.S. Dist. Lexis 191859
(E.D.N.C., W. Div. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Peckham v. Cont’l Cas. Ins. Co., 895 F.2d 830 (1st Cir. 1990) . . . . . . . . . . . . . . 20
Specht v. Jensen, 853 F.2d 805 (10th Cir. 1988) (en banc). . . . . . . . . . . . . . . . . . 20
TIVO Inc. v. EchoStar Comm. Corp., 2005 U.S.Dist. Lexis 42481
(E.D.Tx., Marshal Div., 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Waco Int’l, Inc.v. KHK Scaffolding Houston, Inc., 278 F.3d 523
(5th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Artunoff, 1 F.3d 1112 (10th Cir. 1993). . . . . . . . . . . . . . . . . . . . 20
United States v. Aucoin, 964 F.2d 1492 (5th Cir. 1992), cert. denied,
506 U.S. 1023 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Benson, 941 F.2d 598 (7th Cir. 1991). . . . . . . . . . . . . . . . . . . . . 17
United States v. Biasucci, 786 F.2d 504 (2d Cir. 1986) . . . . . . . . . . . . . . . . . . . . 23
United States v. Biller, 2007 U.S. Dist. Lexis 7156 (N.D.W.Va. 2007) . . . . . . . . 18
United States v. Bilzerian, 926 F.2d 1285 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . . 20
United States v. Coffman, 574 Fed. Appx. 541 (6th Cir. 2014) . . . . . . . . . . . . . . 20
United States v. Johnson, 139 F.3d 1359 (11th Cir. 1998) . . . . . . . . . . . . . . . . . . 17
iv

United States v. Moloney, 287 F.3d 236 (2d Cir. 2002) . . . . . . . . . . . . . . . . . . . . 19
United States v. Moseley, 2020 U.S. App. Lexis 34648, 980 F.3d 9
(2d Cir. November 3, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
United States v. Neff, 787 Fed. Appx. 81 (3d Cir. 2019), cert. denied,
140 S. Ct. 2674 (April 20, 2020) (petitioner Neff), cert. denied,
207 L. Ed 2d 1097 (June 29, 2020) (petitioner Hallinan) . . . . . . . . . . . . . . 22
United States v. Offill, 666 F.3d 168 (4th Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Pepe, 767 F.32 632 (11th Cir. 1984) . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Philpot, 733 F.3d 734 (7th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 18
United States v. Rutigliano, 790 F.3d 384 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . 19
United States v. Tartaglione, 815 Fed. Appx. 648 (3d Cir. 2020). . . . . . . . . . . . . 20
United States v. Wong, 40 F.3d 1347 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 19

CONSTITUTION AND STATUTES
United States Constitution, Amend. V. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 1961(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 22
18 U.S.C. § 1962(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 22

v

PETITION FOR WRIT OF CERTIORARI
Petitioner Scott Tucker respectfully petitions for a writ of certiorari to
review the decision of the United States Court of Appeals for the Second Circuit
affirming his federal convictions.
OPINION BELOW
The opinion of the Court of Appeals (Pet. App. 1a-15a) is reported at United
States v. Grote, 961 F. 3d 105 (2d Cir. 2020). The Court’s decision denying
petitioner’s petition for rehearing (Pet. App. 16a) is unreported (Pet. App. 27a), as
is the Court’s supplemental order (Pet. App. 28a).
JURISDICTIONAL STATEMENT
The Court of Appeals issued its opinion and entered judgment on June 2,
2020 (Pet. App. 1a), and denied petitioner’s timely petition for panel rehearing
(Pet. App. 16a) on August 20, 2020 (Pet. App. 27a). The Court issued a
supplemental order in connection with the rehearing petition on October 22, 2020
(Pet. App. 28a). Pursuant to this Court’s order dated March 19, 2020, petitioner’s
time to file a petition for a writ of certiorari was extended to 150 days from the
date of the order denying his petition for panel rehearing.

1

This Court has jurisdiction under 28 U.S.C. § 1254(1). The District Court
had jurisdiction under 18 U.S.C. § 3231. The Court of Appeals had jurisdiction
under 28 U.S.C. § 1291.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the following constitutional and statutory provisions:
The Fifth Amendment to the United States Constitution provides, in
pertinent part:
No person shall be . . . deprived of liberty . . . without
due process of law.
18 U.S.C. §1962(c) provides, in pertinent part:
It shall be unlawful for any person employed by or
associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign commerce,
to conduct or participate, directly or indirectly, in the
conduct of such enterprise’s affairs through a pattern of
racketeering activity or collection of unlawful debt.
18 U.S.C. §1961(6) provides, in pertinent part:
“unlawful debt” means a debt . . . (B) which was incurred in
connection with the business of . . . lending money or a thing of
value at a rate usurious under State or Federal law, where the
usurious rate is at least twice the enforceable rate.

2

STATEMENT OF THE CASE
A.

Proceedings Below
A pay day loan is a short-term unsecured loan, generally for a small amount

of money. This case was the first criminal pay day lending prosecution to go to
verdict in the country. It was premised on the collection of unlawful debt
provision contained in the federal racketeering statute. At the beginning of the
charged conspiracy, petitioner Scott Tucker partnered with a bank issuing highinterest pay day loans. The government contended the bank was a front, used to
evade state usury laws. It made the same allegation about petitioner’s later
partnership with three federally-recognized Indian tribes, which were sovereign
nations and enjoyed tribal sovereign immunity.
Petitioner maintained that the bank and the tribes were the lender, and that
his company serviced the loans. The sole contested issue was his state of mind:
whether he had acted “willfully” as to the racketeering counts, and, relatedly, with
an intent to defraud as to wire fraud (the money laundering counts rested on the
proceeds from the wire fraud).
B.

Statement of Relevant Facts
1.

The Government’s Case and Petitioner’s Defense

The indictment alleged that from 1997 through August, 2013, petitioner
3

Scott Tucker owned and controlled a group of pay day lending businesses that
charged usurious interest rates on loans made in many states, including New York.
Starting in 2006, co-defendant Timothy Muir acted as counsel (Ind., pars. 1-4).
In the early period, beginning in 1997, the loans were made through a Delawarechartered bank [County Bank], with petitioner “falsely representing” that the bank
was the lender so as to “improperly avail” himself “of laws which entitle banks to
‘export’ the interest rate of their home state, and thereby to avoid usury laws that
are more restrictive than those of their home state” (Ind., par.21; T.703).1
At trial, the government presented one witness on the County Bank
program, Adrian Rubin. A serial felon facing 65 years in prison, Rubin testified
that the loans were from petitioner, who effectively rented the Bank’s name to
avoid usury laws (see Pet. App. 6a-7a). But petitioner called Leonard Goodman,
the bank’s lawyer, who testified as to his opinion that the loans were bank loans
and lawful (T.1928-47, 1976-77, 1988). Another government cooperator (Crystal
Grote) also undercut Rubin and lent some support to Goodman’s testimony
(T.689-90, 703, 820-23).

1

“T.” refers to the trial transcripts, and “GX” and “DX” refer to exhibits
introduced by the government and the defense, respectively. “Ind.” refers to the
indictment filed against the defendants, and “Dkt.” refers to the district court
docket sheet, with entries identified by number.
4

Starting in 2003, petitioner allegedly formed “sham relationships” with
three federally-recognized Indian tribes, in order to invoke “tribal sovereign
immunity” to thwart enforcement of state usury laws (Ind., par. 23; see Pet.
App.7a). The loans were administered by a company which became known as
CLK Management; in 2008, the name changed to AMG Services (see, e.g., T.72526, 738). The letters of intent and signed service agreements made clear that the
capital to fund the loans and administer the loan program would come from
petitioner’s company, which would also provide the personnel, equipment and
expertise required to market and service the loans. These services would be
supplied from petitioner’s facility in Kansas. The tribe would bear no financial
risk, and would be guaranteed a payment of the greater of $20,000 per month or
one percent of the gross collected revenue (see Pet. App.7a).
Each tribe formed a tribal corporation and enacted tribal laws governing
interest, loans and debt (see, e.g., DX 729, 1004, 1007, 1008, 1038). Each
designated an officer to work with petitioner’s service company. The tribe agreed
to furnish an office on tribal land and one employee to act as an administrator.
Disputes between the parties were to be resolved in tribal court under tribal rules
(see, e.g., GX 301, 302). A revocable power of attorney from each tribe was
granted to petitioner; the latter authorized him to open, operate and maintain bank
5

accounts in the name of the tribal corporation set up to engage in the lending
business (see GX 202, 303, 802).
The government maintained that petitioner’s company was the true lender,
since the tribes essentially did nothing: the loan applications were not reviewed,
processed or funded on tribal land, and the tribe did not put up any money or take
any risk (see Pet. App. 7a). The defense rejoined that the tribes were completely
ill-equipped to service the loans. They were located in remote areas, with a
woefully inadequate labor pool and poor internet access (see T.1293-95; 1331-32;
1407-08). The service company grew to employ some 1,500 people staffing
multiple departments (T.154-56; 827-28; 1258). The volume of loans was
tremendous: 4.65 million customers between 2008-2012, the period for which
statistics were available (T.1685-87, 1689).
The internet came into being in 2000 or 2001 (T.899), before any of the
tribes became involved. By that time, the portfolios had websites and the loans
were offered, applied for, accepted, processed and funded almost exclusively by
electronic means. There was software to screen applicants and determine if they
met the criteria for approval – no person actually “approved” a loan (T.705,72834). The software, called eCash, was stored on a Nevada server and accessed over
the internet (T.1259). However, the tribe did maintain control over the bank
6

account through which the loan disbursements and repayments flowed, because it
could revoke the power of attorney it gave to petitioner at any time. As the
defense showed, the Miami Tribe did this at the end of 2012 (see DX 854).
In 2008, CLK (the servicing company in Kansas) was merged into AMG
Services, an entity of the Miami Tribe (DX 759). The government contended this
was a “sham” and that the business remained in petitioner’s hands (see Pet. App.
7a). The defense did not dispute that the loans continued to be serviced by the
people in the Kansas facility, or that petitioner was involved – he was an employee
of AMG, not its owner.
In 2010, petitioner sued AMG in Kansas state court to compel filing of a
certificate of merger with the Secretary of State. The government’s own witness,
an attorney (Robert Smith), acknowledged that such a filing was necessary to
complete a merger of two companies. Smith was retained by petitioner on the
matter, and worked with co-defendant Muir. Muir had found a Kansas statute that
would permit the district court to direct the state to accept the certificate for filing
if AMG did not answer the suit. Smith agreed the statute applied, and filed the
papers Muir had prepared. AMG defaulted, and the requested relief was granted
(T.1209-31).

7

During Smith’s examination, the defense introduced a government exhibit
which explained why AMG refused to file the certificate, why it defaulted, and
that the suit was a friendly one. AMG’s position was that the merger with CLK
was governed by, and valid under, tribal law, and entitled to “full faith and credit”
by the State of Kansas. The Tribe would not do anything that would serve as
“consent to the jurisdiction over AMG by the State . . . for any reason” (T.1239;
GX 2612).
The government contended that this lawsuit, too, was a “sham,” based on its
view that petitioner owned and controlled AMG (T.3136-37).
The remaining counts charged were intertwined both with those involving
the collection of unlawful debt, and with each other. The Truth in Lending Act
violations were based on “false and inaccurate information” in the TILA
disclosures about the cost of the loan; the wire fraud counts rested on those same
alleged lies as well as false statements that the lenders were Indian tribes; and the
promotion and concealment money laundering counts were based on the wire
fraud (see
- - indictment; government summation: T.3149-54, 3159-60).
2.

Additional Facts Relevant to Questions Presented

There was extensive litigation before trial about the parameters of
petitioner’s advice of counsel defense and discussion of the law by witnesses. As
8

pertinent here, the court limited reliance on counsel evidence to advice obtained
before petitioner began lending through County Bank, and, later, pursuant to the
tribal model. The defense objected, since the tribal lending went on for years and
the model was not static. That petitioner kept seeking advice, and the model was
revised, was evidence that his conduct was not “willful,” that is, that he was not
aware of the generally unlawful nature of his conduct. Moreover, discussions
petitioner had with counsel would be relevant to his state of mind, not strictly
tethered to a reliance on counsel defense.2
The court disagreed (9/28/17 transcript, p.1614). This foreclosed petitioner
from presenting any evidence of ongoing advice he received from Conly Schulte
after the tribal loans started, and all legal advice he received from two other
attorneys, Lance Morgan and co-defendant Muir. Muir, in turn, was prohibited
from discussing legal conversations he had had with other lawyers relevant to his
state of mind, which prevented him from providing a fullsome explanation for his
belief that the tribal model – as it was set up and later modified – was lawful, and
that tribal interest rates, not state usury caps, applied. With limited exceptions, the
court also prohibited defense witnesses from explaining the legal basis of their
2

See, e.g., Dkt. #129, pp.34-35 of 69; #135, pp.19-20 of 28; #190, pp.2-3; #195;
#215, pp.4-5; #229, pp.3-4; #234, pp.1-2; #235, pp.1-2; 9/28/17 transcript,
pp.1602-03, 1613-14; Dkt. #242.
9

belief that the conduct was lawful. That such testimony would not be offered for
its truth did not matter: it was the court’s prerogative to instruct the jury on matters
of law.
The court also precluded defendants from calling Gavin Clarkson, an
impeccably-credentialed expert on the doctrines of tribal sovereignty and tribal
sovereign immunity, and the relationship of these doctrines to a state’s efforts to
regulate Native American commercial ventures (see Dkt. #190-1, p.4, and Mr.
Clarkson’s curriculum vitae, id., p.5). Among the noticed topics, to be discussed
by the expert and various named attorneys who represented petitioner over the
years, including Muir (Dkt. #215-2, p.5), was a tribe’s power to conduct business
“both on and off Indian lands and reservations with no interference from the states
absent express approval by Congress. The experts will note that there are federal
laws and a Presidential Executive Order which encourage the investment of
private capital into Indian commercial ventures for the purpose of enabling the
tribes to achieve economic self-sufficiency” (Dkt. #215-2, p.4).
There would also be testimony that “the concept of using [tribal sovereign
immunity] to export interest rates in the same manner that had been done with the
banks was the subject of industry seminars and legal opinion letters which
validated the model. Such testimony will include the manner in which the
10

businesses operate through the use of servicing companies to market, fund, and
collect loans that are made by a federally-recognized Indian tribe (including arms
of such tribes)”; that “there are no current federal laws or regulations which
govern short-term consumer loans that are made by Indian tribes working in
conjunction with private investors and/or servicers,” including “how the profits
from these relationships are to be allocated between the tribe and private investors,
how the responsibilities for performing the day-to-day activities of the business
are to be divided between the tribe and the servicing companies, and how much, if
any, autonomy the tribe must exercise in the actual operation of the business”
(Dkt. #215-2, pp.4-5).
This testimony would provide context to the defense, to show that the
defendants did not “just . . . dream up this idea . . . .; it does have some validity.
Our expert [Clarkson] certainly couldn’t say this model, what these guys were
doing, was legal. He wouldn’t say that. He would give some background, like
any expert would, to put in context what I would call a secondary expert, the
people who gave advice to [petitioner] and his entities” (9/6/17 transcript, p.82).
The defendants also noted that although opinion evidence as to matters of law was
generally inadmissible, it had been allowed when the subject was a complex one
and the testimony would assist the jury (Dkt. #195, p.3). Tribal sovereignty,
11

sovereign immunity and their application to arms of a tribe comprised such a
subject, “impossible to reduce to simple jury instructions devoid of evidentiary
background and context” (Dkt. #195, p.4; see also Dkt. #215, pp.4-5).
The court ultimately precluded Mr. Clarkson as a witness, holding that his
testimony was “not an appropriate subject for expert testimony” (9/28/17
transcript, pp.1805-06). It circumscribed the attorney witnesses as well.
C.

The Direct Appeal to the Court of Appeals
1.

The Mens Rea Element for Collection of Unlawful Debt

Petitioner raised numerous issues on appeal to the Second Circuit. One
involved a jury instruction that removed the element that petitioner had acted
“wilfully,” that is, with awareness that the loans were unlawful; the jury was
allowed to convict if persuaded simply that petitioner knew the interest rates
charged. That he did was not disputed, and co-defendant Muir, in his testimony,
expressly admitted he did. This instruction mooted petitioner’s defense that he
believed in good faith, based on advice of counsel, that the tribal model was
lawful and that the tribal interest rates applied to the loans (see Pet. App. 8a).
The Court of Appeals did not decide whether “willfully” was the required
mens rea element for the collection of unlawful debt, and whether the challenged
instruction was erroneous. It declined to reach the issue because, even assuming it
12

was, the error did not prejudice petitioner due to the “overwhelming” evidence of
his guilt. It did not address petitioner’s contention that the instruction was not
only wrong but would have confused the jury in relation to other instructions, and
found the error was unpreserved for appellate review (Pet. App. 8a-11a) – a claim
the government had never made. Petitioner contested this in his petition for panel
rehearing (Pet. App. 18a, 20a-25a), but the Court denied the petition (Pet. App.
27a), and issued a supplemental order adhering to its position (Pet. App. 28a).
Although it “express[ed] no view on whether willfulness or awareness of
unlawfulness was required for conviction under [the racketeering counts]” (Pet.
App. 11a), the Court of Appeals did discuss the need to resolve what mental state
was required for a criminal racketeering offense based on the collection of
unlawful debt. It noted the Supreme Court’s decisions in Elonis v. United States,
575 U.S. 723, 135 S. Ct. 2001, 2011 (2015) and United States v. X-Citement
Video, Inc., 513 U.S. 64, 72 (1994), favoring “a scienter requirement” to avoid
criminalizing “otherwise innocent conduct” (Pet. App. 11a; see, generally, Pet.
App. 11a-13a).
The Court of Appeals also discussed the variety of state usury laws, with
different interest caps and different (or no) state-of-mind elements, and that RICO
liability, if predicated on the applicable state law, could also rest solely on a state
13

civil statute (Pet. App.12a-13a). These issues, the Court noted, “will pose
troublesome questions in future cases” (Pet. App. 13a).
2.

Preclusion of Advice-of-Counsel Evidence and Expert Testimony

Petitioner challenged the temporal limitation on his advice of counsel
defense, which precluded him from presenting evidence about advice he received
after the tribal loans began and refinements were made to the tribal model. He
similarly challenged the exclusion of Gavin Clarkson as an expert witness. With
respect to the latter, the Court of Appeals did not address all aspects of petitioner’s
proffer, and couched the expert’s prospective testimony as limited to “the topic of
tribal sovereignty.” The Court ruled that Clarkson’s testimony would not be
probative of petitioner’s state of mind because he had not personally advised
petitioner, and that his alleged prospective testimony on “the legal issue of the
lawfulness of the loans” was not an appropriate subject for an expert witness (Pet.
App. 14a).
The advice-of-counsel issue was not addressed in the Court of Appeals’
decision. Instead, it was dismissed without reference, along with all the other
issues petitioner had raised which were not cited in the opinion, as “frivolous”
(Pet. App. 14a). Petitioner asked the Court to reconsider this ruling (Pet. App.

14

18a, 25a-26a), but his petition for panel rehearing was denied (Pet. App. 27a).
REASONS FOR GRANTING THE PETITION
The Questions Presented in this petition all implicate petitioner’s
fundamental constitutional right to due process and to present a defense. See
Chambers v. Mississippi, 410 U.S. 284, 294 (1973) (“The right of an accused in a
criminal trial to due process is, in essence, the right to a fair opportunity to defend
against the State’s accusations”).
I.

The Court of Appeals has endorsed an inflexible rule that limits
evidence of legal advice rendered to the defendant to the very
inception of the charged conduct. This rule, which provides an
unfair advantage to the government, conflicts with decisions in
other circuits.

Petitioner was charged with a 16-year conspiracy to collect unlawful debts,
ten years’ worth of substantive collections of unlawful debt, and related ongoing
wire fraud and money laundering offenses. He maintained that he had not acted
willfully: “with a purpose to do something that the law forbids,” with an
“aware[ness] of the generally unlawful nature of his act.” He raised an advice-ofcounsel defense with respect to the racketeering counts, and a good faith defense
to the fraud allegations, as to which the advice petitioner had received was also
relevant.

15

The district court did not permit petitioner to present any legal advice he
received after June 2004, when the first tribal loans were made. This severely
curtailed the testimony of Conrad Schulte, a lawyer intimately involved with the
formation and development of the tribal model. The ruling also precluded advice
given by co-defendant Muir, who was hired as counsel to petitioner’s servicing
company in 2006, and attorney Lance Morgan, who, in 2006, initiated and
implemented the merger of petitioner’s company into one wholly-owned by the
Miami Tribe. In drawing this line, the court invoked a general principle,
applicable in a typical reliance-on-counsel case, that only advice given before the
charged conduct begins is relevant.
But this was not a typical case. The tribal model was brand new, and
petitioner sought to prove that he acted in good faith not only at the inception of
the loans, but during the entire course of the charged offenses. He consulted
numerous attorneys along the way to advise him on how the innovative business
model should be structured and run. The advice was not provided at a specific
point of time, for a particular purpose – such as determining the tax consequences
of an asset sale. The advice was instead ongoing as the lending operation grew,
and as it began to be scrutinized by regulators. Changes were made, such as the
merger of petitioner’s service company into a newly-formed tribal corporation.
16

The government contended this merger was itself part of the fraud, and that
advice rendered in response to civil lawsuits was only to further a litigation
strategy of continuing to hide the identity of the true lender. Indeed, the
government was allowed to present whatever proof it had to establish petitioner’s
guilt, whether it related to 1997 or 2008 or 2013. But for the defense, the court
drew a clear, temporal line.
The Court of Appeals endorsed the lower court’s ruling, effectively
establishing a per se rule that, no matter what the facts and circumstances, legal
advice provided after the alleged criminal conduct starts is inadmissible. This rule
is not merely inequitable, it is also in tension with decisions in other Circuits. In
United States v. Johnson, 139 F.3d 1359, 1366 (11th Cir. 1998), the jury asked
during deliberations “whether the ‘good faith’ defense applies when a defendant
acquires new information but continues to follow outdated advice previously
obtained from counsel.” The court’s answer – “good faith reliance upon the
advice of counsel requires not only full and complete disclosure of the facts then
known but also of material facts or information later acquired” – was deemed
correct. --See ---also -----------------United States v. Benson, 941 F.2d 598, 614 (7th Cir. 1991) (“[i]f
a person is told by his attorney that a contemplated course of action is legal but
subsequently discovers the advice is wrong or discovers reasons to doubt the
17

advice, he cannot hide behind counsel’s advice to escape the consequences of his
actions”), reaffirmed in United States v. Philpot, 733 F.3d 734, 745 (7th Cir.
2013); United States v. Biller, 2007 U.S. Dist. Lexis 7156, *27-28 (N.D.W.Va.
2007) (same).
Moreover, if the conduct is continuing, there is a continuing obligation to
comply with pertinent regulations and laws, as any business does. See Krausz
Indus. Ltd. v. Smith-Blair, Inc., 2016 U.S. Dist. Lexis 191859, *18 (E.D.N.C., W.
Div. 2016) (“‘because infringement is a continuing activity, the requirement to
exercise due care and seek and receive advice is a continuing duty. Therefore,
once a party asserts the defense of advice of counsel, this opens to inspection the
advice received during the entire course of the alleged infringement’” [case cited
omitted]); accord TIVO Inc. v. EchoStar Comm. Corp., 2005 U.S.Dist. Lexis
42481, *17 (E.D.Tx., Marshal Div., 2005).
These decisions recognize that, depending on the subject on which legal
advice is sought, including its novelty, complexity or evolving nature, an adviceof-counsel defense cannot always be limited to the pre-conduct stage. If the
defendant initially acted in good faith, but later became aware that counsel’s legal
advice was incorrect or might no longer apply, he would have a duty to seek new
advice or proceed at his peril. If he did seek new advice and was assured that the
18

conduct remained legal, or would be if additional steps were taken that he then
implemented, his advice of counsel defense should continue to preclude a finding
that he had acted willfully or in bad faith. Subsequent events, and subsequent
advice received, would be relevant and admissible.
In this case, all of the charges against petitioner were continuing offenses
under Second Circuit law.3 The jury heard evidence supporting his advice of
counsel defense at the inception of the lending period, and may well have accepted
that defense. But the tribal model did not remain static. It evolved. The
government was allowed to cast actions taken after the lending began as further
proof of petitioner’s unlawful state of mind. Petitioner was not allowed to rebut
these allegations by eliciting legal advice he had received after June 2004 that
motivated and supported modifications, relevant to whether or not he had
continued to act in good faith and not willfully.
II.

Lower courts need guidance from the Supreme Court on a
recurring subject as to which different rules have developed: the
admissibility of expert testimony that involves matters of law, but
does not usurp the district court’s role in instructing the jury on
the law applicable to the case.

3

See United States v. Rutigliano, 790 F.3d 384, 396 (2d Cir. 2015) (wire
fraud); United States v. Moloney, 287 F.3d 236, 241 (2d Cir. 2002) (money
laundering as part of ongoing scheme); United States v. Wong, 40 F.3d 1347,
1366 (2d Cir. 1994) (conspiracy generally and substantive RICO).
19

This case presents an opportunity for the Court to consider the appropriate
contours of expert testimony concerning an esoteric subject, which necessarily
touches on matters of law. Circuit courts across the country have grappled with
such questions, with differing results. Some have blanketly excluded such
testimony, others have not. See, e.g., United States v. Tartaglione, 815 Fed. Appx.
648, 650-51 (3d Cir. 2020); Commodores Entm’t Corp. v. McClary, 879 F.3d
1114, 1128-29 (11th Cir. 2018); United States v. Coffman, 574 Fed. Appx. 541,
552-53 (6th Cir. 2014); United States v. Offill, 666 F.3d 168, 173-76 (4th Cir.
2011); Waco Int’l, Inc.v. KHK Scaffolding Houston, Inc., 278 F.3d 523, 532-33
(5th Cir. 2002); United States v. Artunoff, 1 F.3d 1112, 1117-18 (10th Cir. 1993);
United States v. Bilzerian, 926 F.2d 1285, 1294 (2d Cir. 1991); Peckham v. Cont’l
Cas. Ins. Co., 895 F.2d 830, 837 (1st Cir. 1990); Specht v. Jensen, 853 F.2d 805
(10th Cir. 1988) (en banc).
In this case, the court precluded defendants from providing expert testimony
on tribal sovereignty, tribal sovereign immunity and the structure of tribal
businesses partnered with outside companies not located on tribal lands (so-called
“arms of the tribe”). The proffered testimony would include discussion of the
allocation of profits and responsibilities for day-to-day operations, and federal
laws and policies that encouraged the investment of private capital in Indian
20

commercial ventures for the purpose of enabling the tribes to achieve economic
self-sufficiency. This information would come from an acknowledged expert, who
would have provided factual background and context as to a specialized and
complex area unknown to the average juror, including the tribe’s use of service
companies to market, fund and collect loans. It would also be provided by lawyers
testifying for the defense, including co-defendant Muir. Their testimony would
not purport to prove the legality of the tribal model, but, rather, the defendants’
state of mind: their good faith belief that the loans were lawful, which was critical
to their defense.
Because of the court’s ruling, the attorneys could only assert what they
believed, without being able to say why – the why, of course, was crucial to the
jury’s assessment of their credibility. Further, the defense was deprived of
material evidence to rebut the government’s contention that the tribal model was
merely a “sham,” based in part on the fact that it was petitioner who provided the
capital for the lending business, and that the tribes took no risk. The government
also harped on the alleged inequity of the monetary split, whereby the tribe only
received one percent of the gross revenues. Expert evidence that these
arrangements were not atypical when tribes partnered with non-Indian companies,

21

and that tribes did partner with outside companies both on and off tribal lands, was
critical to the defense.
In this time of ever more sophisticated, complex, specialized and regulated
businesses, with which laymen are unacquainted, this Court should provide
guidance on the parameters of expert testimony.
III.

There is a need for a uniform mens rea element in racketeering
prosecutions for the collection of unlawful debt. At present, there
is a conflict among the circuits, and different positions will lead to
disparate results, in violation of due process.

The racketeering statute contains no mens rea element. 18 U.S.C. §1962(c).
“Unlawful debt” is defined with reference to state or federal usury laws, “where
the usurious rate is at least twice the enforceable rate.” 18 U.S.C. § 1961(6).
There is no federal usury law, so liability for the collection of unlawful debt rests
solely on the applicable state usury laws, which can include civil as well as
criminal statutes.
Within the past year, this Court has twice been asked to grant certiorari to
consider what mental state element should be required for a criminal conviction
under RICO’s collection of unlawful debt provision. United States v. Neff, 787
Fed. Appx. 81 (3d Cir. 2019), cert. denied, 140 S. Ct. 2674 (April 20, 2020)
(petitioner Neff), cert. denied, 207 L. Ed 2d 1097 (June 29, 2020) (petitioner

22

Hallinan). This was another pay day lending prosecution involving Indian tribes.
There, the Third Circuit upheld a jury instruction grounding conviction on
knowledge that the interest rate violated the law (necessarily, state law).
In United States v. Aucoin, 964 F.2d 1492, 1498 (5th Cir. 1992), cert.
denied, 506 U.S. 1023 (1992), the Fifth Circuit held that a “knowing” violation of
state law was sufficient, and in United States v. Pepe, 767 F.32 632,676 (11th Cir.
1984), the 11th Circuit endorsed “knowingly or willfully” as the mens rea required
(emphasis added). These were loansharking prosecutions.
In the Second Circuit, in another loansharking case, the Court of Appeals
upheld requiring the government to prove the defendants acted “knowingly,
wilfully and unlawfully”; the burden could be met “either by proving specific
knowledge of the interest rates on the usurious loans, or by showing the
defendants' awareness ‘of the generally unlawful nature of the particular loan in
question and also that it was the practice of the lenders to make such loans.’”
United States v. Biasucci, 786 F.2d 504, 512-13 (2d Cir. 1986). In this case, the
Court of Appeals questioned this earlier decision, and discussed at length the
problems associated with making federal liability wholly dependent on state usury
laws (Pet. App. 11a-13a). Yet the Court of Appeals refused to resolve the issue,

23

and did so again in United States v. Moseley, 2020 U.S. App. Lexis 34648, *1317, 980 F.3d 9 (2d Cir. November 3, 2020).
Respectfully, petitioner believes that the Court of Appeals’ harmless error
holding here is itself error, particularly given that a wealth of material defense
evidence was kept from the jury (as discussed in I and II above). Petitioner also
disagrees that the issue of the district court’s confusing instructions on the
required mental state – one of which permitted jurors to convict simply on
(undisputed) proof that defendants were aware of the interest rates charged on the
loans – was unpreserved for appellate review. In any event, even so, the
instructional error seriously prejudiced the defendants.
Thus, petitioner is not seeking an advisory opinion from this Court, but one
that will provide clarity in his and countless other racketeering prosecutions.
Short-term lending continues, and without a uniform mens rea element that applies
in all federal cases, there will be disparate and inequitable results dependent solely
on the venue of the prosecution.
CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be
granted.

24

Respectfully submitted,

Dated: January 18, 2021
BEYERLY VAN NESS
Attorney-at-Law
Counsel for Petitioner Scott Tucker

25

APPENDIX
Court of Appeals’ Opinion, United States v. Grote, 961 F.3d 105
(2d Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Petitioner’s Petition for Panel Rehearing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16a
Court of Appeals’ Order Denying Rehearing (August 20, 2020) . . . . . . . . . . . . 27a
Court of Appeals’ Supplemental Order (October 22, 2020) . . . . . . . . . . . . . . . . 28a

fl

Neutral
As of: July 27, 2020 5:31 PM Z

United States v. Grote
United States Court of Appeals for the Second Circuit
June 12, 2019, Argued; June 2, 2020, Decided
Docket No. 18-181(L), 18-184(CON), 18-1802
Reporter
961 F.3d 105 *; 2020 U.S. App. LEXIS 17330 **

Disposition: AFFIRMED.

UNITED STATES OF AMERICA, Appellee, v.
CRYSTAL GROTE, AKA CRYSTAL CRAM, AKA
CRYSTAL CRAM-GROTE, AKA CRYSTAL STUBBS,
Defendant, and TIMOTHY MUIR, SCOTT TUCKER,
Defendants-Appellants.

Core Terms
Tribes, lending, borrowers, tribal, payday, forfeiture,
predicated, lender, renewal , conspiracy, unenforceable,
automatic, portfolios, willfully, forfeited , indictment,
sovereign, racketeering, exceeded, futile, sham, opt,
deliberately, customers, knowingly, annual, repaid,
nova, box

Prior History: Timothy Muir and Scott Tucker appeal
from a judgment of conviction entered after a jury trial in
the United States District Court for the Southern District
of New York (P. Kevin Castel, J.) on fourteen counts
including collection of unlawful usurious debt, and
conspiracy to do so, wire fraud, and money laundering,
arising out of Defendants' operation of a payday lending
business. The defense was primarily that the lending
business was not subject to state usury laws because it
was conducted by Native American tribes and was
therefore protected by tribal sovereign immunity.
Defendants' primary contention on appeal is that the
district court erred in instructing the jury that
willfulness-which the parties agreed was the required
state of mind for a charge of lending at unlawful
usurious rates-can be satisfied merely by the
defendants' knowledge of the interest rates charged,
even if they believed the lending was lawful. Because
defendants made no objection following the charge as
generally required by Fed. R. Crim. P. 30, and there
was no basis to conclude that objection would have
been futile , the plain error standard of Fed. R Crim. P.
52 [**1] applies. We conclude the error, if any, was not
plain error. We also find no abuse [**2] of discretion in
the district court's denial of Tucker's application for a
stay of the forfeiture order against him ..

Case Summary
Overview

HOLDINGS: [1)-Any error by the district court in
instructing the jury on the mental state for the RICO
counts that willfulness could be satisfied merely by
defendants' knowledge of the interest rates charged,
even if they believed the lending was lawful, was not
plain error because the jury necessarily found in
rendering a guilty verdict on the RICO conspiracy count,
for which an undisputedly correct willfulness instruction
was given as to the "conspiracy" element, that
defendants were aware of the unlawfulness of their
making loans with interest rates that exceeded the limits
permitted by the usury laws, and the evidence of
defendants' willfulness was overwhelming;
[2)Defendant's application for a stay of the forfeiture order
against him was properly denied because he was
unlikely to succeed on the merits of his appeal.

United States v. Tucker. 2017 U.S. Dist. LEXIS 134265
(S.D.N. Y.• Mar. 1. 2017)

1

Page 2 of 15
961 F.3d 105, *105 ; 2020 U.S. App. LEXIS 17330, **2

HN2[.i.] De Novo Review, Jury Instructions

Outcome
Judgment affirmed.

The preclusion of de nova appellate review for failing to
object following a jury charge is not absolute. If the party
that failed to object following the jury charge had
previously objected, making its position clear, and it was
evident in the circumstances that renewal of the
objection would be futile because the court had clearly
manifested its intention to reject the objection, the failure
to renew the objection as specified in Fed. R. Crim. P.
30(d) does not forfeit de nova review.

LexisNexis® Headnotes

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Jury Instructions

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Burdens of Proof

Criminal Law & Procedure > ... > Standards of
Review> De Novo Review> Jury Instructions

Criminal Law & Procedure > ... > Standards of
Review > Plain Error> Definition of Plain Error

Criminal Law & Procedure > Trials > Jury
Instructions > Objections

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Jury Instructions

HN1 [A ] Plain Error, Jury Instructions
HN3[A ] Plain Error, Burdens of Proof
Where a claim of error in the district court's instruction to
the jury is properly preserved, the appellate court
reviews that claim de nova, reversing if, viewing the
charge as a whole, there was a prejudicial error. In
order to be preserved, an objection to the jury
instructions must be made by informing the court of the
specific objection and the grounds for the objection
before the jury retires to deliberate. Fed. R. Crim. P.
30(d) . This objection generally must occur after the
instruction is given to the jury, that being the court's
clearest opportunity to fix a mistake that might otherwise
require retrial. Failure to object in the manner prescribed
by the rule, so as to give the district court a clearly
framed opportunity to correct an error in the charge,
results in forfeiture of de nova review of the error.
Where the claim of error in the charge is not properly
preserved, it is reviewed instead under the far more
exacting standard of plain error, as specified in Fed. R.
Crim. P.
52(b) . Rule 30(d) . Failure to object in
accordance with Rule 30(d) precludes appellate review,
except as permitted under Rule 52(b) .

When the plain error standard of review applies, the
court of appeals may vacate a conviction on account of
a challenged jury instruction if the instruction contains
(1) error, (2) that is plain , and (3) that affects substantial
rights. In addition, the error must seriously affect the
fairness, integrity, or public reputation of judicial
proceedings. In most cases, to affect substantial rights
the error must have been prejudicial: It must have
affected the outcome of the district court proceedings.
Fed. R. Crim. P. 52(b) authorizes the courts of appeals
to correct particularly egregious errors and is to be used
sparingly, solely in those circumstances in which a
miscarriage of justice would otherwise result. The
burden is on the defendant to demonstrate that these
criteria for relief are met.

Criminal Law &
Procedure > ... > Racketeering > Racketeer
Influenced & Corrupt Organizations Act > Elements

Racketeer
Influenced
Organizations Act, Elements

Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Jury Instructions

&

Corrupt

Racketeer Influenced and Corrupt Organizations Act
(RICO) offenses may be predicated on a single instance
of collection of unlawful debt, as well as on a pattern of
racketeering activity. 18 U.S.C.S. § 1962. While

Criminal Law & Procedure > Trials > Jury
Instructions > Objections

2

Page 3 of 15
961 F.3d 105, *105; 2020 U.S. App. LEXIS 17330, **2

Law§ 5-501 . The New York law also provides that all
bonds, bills, notes, assurances, conveyances, all other
contracts or securities whatsoever whereupon or
whereby there shall be reserved or taken any greater
sum, or greater value, for the loan or forbearance of any
money, than is prescribed in § 5-501 , shall be void . N. Y.
Gen. Ob/iq. Law § 5-511 . Thus, loan contracts with an
interest rate exceeding 16% are unenforceable under
New York's civil usury law, regardless of the mental
state of the lender.

racketeering activity is generally understood to
encompass only criminal offenses, the RICO statute
defines unlawful debt to include any debt which is
unenforceable under State or Federal law because of
the laws relating to usury and which was incurred in
connection with the business of lending money or a
thing of value at a rate usurious under State or Federal
law, where the usurious rate is at least twice the
enforceable rate. 18 U.S.C.S. § 1961(6) This definition
includes debts that would be usurious under the laws of
several states, and hence unenforceable, but that would
not violate any state criminal usury laws. Thus, the
criminal RICO offense of participating in the conduct of
an enterprise's affairs through collection of unlawful debt
may arguably be predicated on a violation of only civil
usury laws.

Criminal Law &
Procedure > ... > Racketeering > Racketeer
Influenced & Corrupt Organizations Act> Elements
Racketeer
Influenced
Organizations Act, Elements

Banking Law > ... > Banking & Finance > National
Banks > Usury Litigation

&

Corrupt

If a defendant may be convicted under the Racketeer
Influenced and Corrupt Organizations Act for
participation in the making or collecting of a loan merely
because a state civil statute renders the loan
unenforceable by reason of the interest rate, without any
requirement whatsoever as to the defendant's state of
mind, in some circumstances this would authorize
racketeering convictions where the defendant had not
only committed no state law offense, but had done
nothing that would offend social mores.

Real Property Law > Financing > Mortgages &
Other Security Instruments > Usury

HN5[A ] Interest & Usury, Usury Litigation
Some state civil statutes render debt unlawful and
unenforceable solely by reason of the rate of interest
charged , without regard to the mental state of the lender
or collector. Such statutes provide simply that loans
carrying an interest rate above a specified threshold are
void and unenforceable. A debt charging interest that
exceeds the threshold rate and is incurred in connection
with the business of lending money at twice the
enforceable rate would thus appear to fit within the
definition of unlawful debt under 18 U.S.C.S. § 1961(6) ,
and could thus arguably serve as the predicate for a
Racketeer Influenced and Corrupt Organizations Act
offense, regardless of what the lender knew or intended.

Criminal Law &
Procedure > ... > Racketeering > Racketeer
Influenced & Corrupt Organizations Act> Elements
Racketeer
Influenced
Organizations Act, Elements

&

Corrupt

A Racketeer Influenced and Corrupt Organizations Act
(RICO) prosecution can be predicated on a single
instance of collection of unlawful debt. And what the
RICO statute calls an enterprise can be any individual,
partnership, corporation, association, or other legal
entity, 18 U.S.C.S. § 1961(4), so long as it is engaged
in, or its activities affect, interstate commerce, 18
U.S.C.S. § 1962(c) . And high interest rates can result
from application of reasonable service fees to small
debit balances in circumstances that do not partake of
the predatory lending practices.

Banking Law > ... > Banking & Finance > National
Banks > Usury Litigation
Real Property Law > Financing > Mortgages &
Other Security Instruments > Usury

HN6[A ] Interest & Usury, Usury Litigation
New York's civil usury statute provides that the
maximum interest rate shall be sixteen per centum per
annum . N. Y. Banking Law§ 14-a(1): N. Y. Gen. Oblig.

Criminal Law & Procedure > ... > Standards of

3

Page 4 of 15
961 F.3d 105, *105; 2020 U.S. App. LEXIS 17330, **2
Review > Abuse of Discretion > Evidence

strong showing that he is likely to succeed on the
merits; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the stay
will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.

HN9[~ ] Abuse of Discretion, Evidence
A district court's decision to exclude expert testimony is
reviewed for abuse of discretion .

Evidence > ... > Testimony > Expert
Witnesses > Criminal Proceedings

Criminal Law &
Procedure > ... > Appeals > Standards of
Review > Abuse of Discretion

Evidence > Admissibility > Expert
Witnesses > Ultimate Issue

Criminal Law & Procedure > Appeals > Standards of
Review > Abuse of Discretion

HN10[I;.] Expert Witnesses, Criminal Proceedings

Criminal Law & Procedure > Sentencing > Stays

Expert testimony that usurps the role of the trial judge in
instructing the jury as to the applicable law by definition
does not aid the jury in making a decision, and is
therefore inadmissible under Fed. R. Evid. 702.

HN13[~ ] Standards of Review, Abuse of Discretion
The appellate court reviews the denial of a stay for
abuse of discretion.

Criminal Law & Procedure > ... > Standards of
Review > Substantial Evidence > Sufficiency of
Evidence

HN11 [il;.]
Evidence

Substantial

Evidence,

Sufficiency

Counsel: THOMAS J. BATH , JR. , Bath & Edmonds,
P.A., Overland Park, KS , for Defendant-Appellant
Timothy Muir. 1

of

BEVERLY VAN NESS , Law Firm of Beverly Van Ness,
New York, NY, for Defendant-Appellant Scott Tucker.

On a defendant's challenge to his conviction based on
the sufficiency of evidence, the appellate court views the
evidence in the light most favorable to the government,
drawing all inferences in the government's favor.

KARL METZNER (Hagan Scotten , Sagar K. Ravi, on
the brief), Assistant United States Attorney, for Geoffrey
S. Berman , United States Attorney for the Southern
District of New York, New York, NY, for Appellee.

Criminal Law &
Procedure> Sentencing> Forfeitures> Proceeding
s

Judges: Before: LEVAL, POOLER, and PARKER,
Circuit Judges.

Criminal Law & Procedure > Sentencing > Stays

HN12[il;.] Forfeitures, Proceedings
Opinion by: LEVAL

A district court may stay a forfeiture order pending
appeal on terms appropriate to ensure that the property
remains available pending appellate review. Fed. R.
Crim. P. 32.2(d) . While neither the Federal Rules nor
Second Circuit precedent set out factors that pertain
explicitly to stays of forfeiture orders, the court has
expressed standards generally governing applications to
stay district court orders or proceedings pending appeal
as follows: (1) whether the stay applicant has made a

Opinion
1 Defendant Muir terminated Mr. Bath as counsel on
September 20, 2018, and later submitted a supplemental brief
prose.

4

Page 5 of 15
961 F.3d 105, *105; 2020 U.S. App. LEXIS 17330, **2
We reject this challenge to the Defendants' convictions.
Because the Defendants did not preserve their objection
in the manner specified by Rule 30 of the Federal Rules
of Criminal Procedure, the "plain error" standard of Rule
52 applies. Even assuming that the charge with respect
to Counts 2-4 was erroneous, the error did not affect the
verdict, and thus Defendants have not satisfied the
requirements of "plain error." The jury necessarily found
in rendering a guilty verdict on Count 1, for which an
undisputedly correct willfulness instruction was given as
to the "conspiracy" element, that the Defendants were
aware of the unlawfulness of their making loans with
interest rates that exceeded the limits permitted by the
usury laws. Furthermore, the evidence of the
Defendants' willfulness was overwhelming. We therefore
find that the standard for a finding of plain error is not
satisfied.

[*108] LEVAL, Circuit Judge:

Defendants Scott Tucker and Timothy Muir appeal their
criminal convictions after a five-week jury trial in the
U.S. District Court for the Southern District of [*109]
New York (P. Kevin Castel, J.) on fourteen counts of
racketeering, conspiracy, and fraud offenses arising out
of the Defendants' operation of an illegal payday lending
scheme. The evidence showed that from about 1997 to
2013, the Defendants lent money at interest rates far in
excess of those permitted under the laws of New York
and other states in which their borrowers resided, and
deceived borrowers as to the terms of the loans.
[""3] The indictment included three counts of
conducting an enterprise's affairs through the collection
of unlawful usurious debt, in violation of the Racketeer
Influenced and Corrupt Organizations Act ("RICO"). 18
U.S.C. § 1962(c) (Counts 2-4); one count of conspiracy
to do the same, in violation of 18 U.S.C. § 1962(d)
(Count 1); one count of wire fraud and one count of wire
fraud conspiracy, in violation of 18 U.S.C. §§ 1343,
1349 (Counts 5-6); three counts of money laundering
and conspiracy to launder money, in violation of 18
U.S.C. § 1956(a)(1)(A)(i), -(a)(1)(8)(i) , -(h) (Counts 7-9);
and five counts of making false statements in
disclosures required by the Truth in Lending Act (TILA) .
in violation of 15 U.S.C. § 1611 (Counts 10-14). The
Defendants were convicted on all counts.

Concluding also that the Defendants' other contentions
are without merit, we affirm the judgments of conviction
on all fourteen counts. Additionally, we find that the
district court did not abuse its discretion in denying
Tucker's application to stay the [**5] execution of the
forfeiture order entered against him following his
conviction .

BACKGROUND
Payday loans are small loans typically to be repaid on
the borrower's next payday. [*11 OJ Such loans
frequently carry high interest rates. Many states,
including New York, have usury laws capping the
permissible annual interest rate on such loans, with the
highest lawful interest rate varying by state.

At trial, the parties agreed-as they do now-that the
requisite mental state for the RICO counts was
willfulness. The Defendants defended primarily on the
ground that, because the lending business was
operated by Native American tribes (the "Tribes"), the
loans were not subject to state usury laws, and that
even if the loans were unlawful, Defendants had a good
faith belief that they were lawful by virtue of the tribal
involvement, so that their conduct was not "willful."

From approximately 1997 through 2013, Defendant
Tucker owned and operated a payday lending business
based in Overland Park, Kansas. Initially, the business
offered loans primarily via fax and telephone. In about
2000 it began to solicit payday borrowers over the
internet, operating through several different websites
which were held out to the public as separate entities,
but which were administered from the same building
and by the same employees, and were referred to
internally as different "portfolios." Muir joined Tucker's
business as an in-house attorney in 2005 or 2006. At its
peak, the business had over 1,500 employees and 4.5
million customers, and generated more than a billion
dollars in yearly revenue.

The Defendants' principal claim on appeal is that the
district court erred in instructing the jury that the
Government could satisfy the required state-of-mind
element of collection of unlawful debt by proving that the
Defendants acted deliberately, "with knowledge of the
actual interest rate charged on the loan[s]," App'x at
264-65, notwithstanding any good faith belief that their
conduct was lawful. Defendants contend that they could
not be properly convicted on the charges [**4] of
unlawful usurious lending unless they acted willfully,
with knowledge that they were acting unlawfully.

Tucker's loans were structured in the following manner.
On each of the borrower's paydays following [**6] the
loan disbursement (until the loan was repaid), the

5

Page 6 of 15
961 F.3d 105, *110; 2020 U.S. App. LEXIS 17330, **6
borrower's bank account was automatically debited a
$30 "service charge" for each $100 remaining on the
loan principal. On each of the first four paydays
following disbursement, the loans would "automatically
renew," meaning that the service charge would be
assessed and no payment would be taken to reduce the
outstanding principal balance. On the borrower's fifth
payday and on each subsequent payday until the
principal was repaid, in addition to the service charge, a
"principal payment" of $50 would be taken from the
borrower's bank account and applied to reduce the loan
principal. According to a chart Tucker used to train his
employees, based on this payment structure, a borrower
would ultimately pay $975 to repay a $300 loan.
Considering the service charges as interest, the
resulting annualized interest rate (which varied
depending on the frequency of a borrower's paydays)
often exceeded 600%.

of automatic renewal. It did not reveal, however, that
under the default payment schedule, the total finance
charge on a loan of $300 would be $675 and the total
payment would be $975. Nor did it adequately reveal
(although setting it forth in small print and hypertechnical language outside the TILA box) that borrowers
could decline the option of automatic renewal.
The indictment alleged that Tucker's enterprise charged
interest rates well in excess of the maximum rates
allowed for payday loans in at least 25 states and
Washington, D.C., and that Tucker and Muir willfully
conducted the affairs of the enterprise through the
collection of unlawful debt. The indictment included four
RICO counts: three for participating in the conduct of an
enterprise's affairs through the collection of unlawful
debt (Counts 2-4), and one for conspiracy to do so
(Count 1). Each of [**9] the three substantive RICO
counts (Counts 2-4) listed five customers, located in
various states, as to whom the Defendants were
charged with collecting unlawful debts. The district court
instructed the jury that, to convict Defendants on Counts
2-4, the jury had to find that Defendants engaged in
collecting at least one of the five unlawful debts listed in
that count.

Borrowers were entitled under the terms of the loans to
opt out of the "automatic renewal" process and instead
pay the full amount of the principal in addition to the
service charge) on their first payday. To opt out of
automatic renewal, [**7] borrowers were required to
notify the lender in writing. A borrower of $300 who
elected to opt out would pay a service charge of $90.
The interest rates charged on the loans exceeded what
was permitted in some states, including New York, even
when the loan was repaid on the first payday. And under
the default automatic renewal process, the interest rates
far exceeded those allowed by the applicable state
usury laws. The written terms of the loans were
materially misleading as to how the automatic renewal
process worked and the borrowers' entitlement to opt
out from it. A major source of borrowers' confusion
regarding the automatic renewal process was the
information in the "TILA Box" displayed in the loan
documents. TILA-the Truth in Lending Act-requires
lenders to make certain disclosures in a prominently
displayed chart or "box" regarding the cost of
prospective loans, including the loan amount, finance
charge, annualized interest rate, and total amount of
expected payments (including the principal). See
generally 15 U.S.C. § 1638(a). The information listed in
the TILA Box on Tucker's loan documents reflected
what those costs would be without the "automatic
renewal" process-that is, what a borrower [**8] would
pay if she opted out of the automatic renewal process
and paid off her entire loan on the first payday. Thus, for
a loan of $300, the TILA box listed that the finance
charge would be $90 and the total amount of payments
(including principal repayment) [*111] would be $390.
The disclosure was correct for borrowers who opted out

The Government's evidence showed that Tucker and
Muir used three different "fronts," including the Tribes, to
avoid detection of their usurious lending practices or to
give those practices the appearance of legality. The first
of these alleged fronts was Tucker's business
relationship, from 1998 to 2004, with County Bank of
Rehoboth Beach, Delaware ("County Bank"). As a
nationally chartered bank, County Bank could lawfully
lend anywhere in the United States at interest rates that
complied with the law of the state in which it was
headquartered. County Bank was headquartered in
Delaware, which does not set a limit on consumer
interest rates. Tucker thus endeavored to give his loans
the appearance of legality by making it seem that
County Bank was the "lender" and his business was
merely the "servicer," while, in fact, he [**10] continued
to own and operate the loans. He continued to provide
the capital for the loans and to administer them through
his Kansas office and through websites that he owned
and controlled . Tucker's business continued to control
loan approval, while County Bank set up a fake
"approval process" to give the false impression that it
was involved in decision-making. In exchange for what
another County Bank "servicer," Adrian Rubin,
described as "renting [County Bank's] name," the bank
received 5% of the loan interest regardless of whether
the loans were actually repaid, and Tucker bore the

6

Page 7 of 15
961 F.3d 105, *111; 2020 U.S. App. LEXIS 17330, **10
received mail for the lending business, they forwarded it
to the Kansas office unopened. To keep up the
appearance that the business was located on tribal land,
Tucker's employees were instructed that they should
never, on pain of termination, reveal the Kansas location
to borrowers, and at least two employees were fired for
doing so. This deception was taken to theatrical lengths:
employees [**13] in the Kansas office regularly
received weather reports for locations of the tribal
reservations, so that they could make accurate small
talk with borrowers about the weather in Oklahoma or
Nebraska.

entire loss when they were not.
As a second "front" strategy, during and subsequent to
the County Bank scheme, Tucker attempted to hide his
identity as lender by paying intermediaries to register a
number of Nevada shell corporations, for which his loan
portfolios served as the "doing business as" aliases.
Rubin testified that Tucker used these aliases on certain
documentation to make it harder for regulators to
identify him as the lender. Tucker also used the Nevada
addresses of the shell companies on loan documents to
conceal the identity and location of his Kansas business
from borrowers. This created [**11] problems when
borrowers noticed that Tucker's employees called from
a phone number with a Kansas area code of 913, which
did not match with the company's purported address in
Nevada, and asked the employees about the
discrepancy. In response, Tucker told his employees to
tell borrowers that the business was located in Nevada
but that its phone calls were routed through an internet
server located in [*112] Kansas; he later began to use
a "1-800" phone number to avoid this issue.

Meanwhile, on actual tribal land, Tucker and Muir built
and staffed sham business office facilities, designed to
make it appear that the Tribes were performing work to
administer the loans, while in reality all the loan
processing took place in Kansas. The Tribes were given
iPads from which tribal officials were to access a
website once a day to "approve" large swaths of loans.
However, the loans had already been approved by
Tucker's employees in the Kansas office, the website
did not allow the tribal officials to access the loan
applications being "considered," and there was no
mechanism for the officials to deny the loans. In
addition, the Tribes formed sham corporate boards to
run the portfolios, but the boards rarely met, had little
understanding of the lending business in Kansas, and
exerted no control over it. Tucker and Muir had the tribal
officials perform these actions to give the false
impression that they were involved in the approval and
administration of the loans, while all [**14] such
meaningful loan administration activity continued to
occur at Tucker's business in Overland Park.

Starting around 2003, Tucker formed relationships with
a number of Native American tribes in order to create
the appearance that Tucker's lending portfolios were
owned and operated by the Tribes. Under the
arrangement, the Tribe would claim to own one or more
of the loan portfolios in exchange for one percent of the
portfolios' revenues. As with his County Bank
arrangement, Tucker continued to provide all the capital
for the loans and bear the risk of default, as well as
advertise, extend, administer, and collect on the loans
from his offices in Overland Park, Kansas. He set up
bank accounts in the Tribes' names and routed portfolio
revenues to those accounts, but maintained control over
the accounts and used them to [**12] fund both
business expenses and personal expenses including
race cars, a private jet, and a mansion in Aspen,
Colorado. Tucker also used these accounts to pay the
Tribes' one percent share of revenue, which went to
other accounts that were in fact owned and controlled
by the Tribes. While the Tribes claimed to "own"
portfolios, Tucker maintained the ability to transfer
"ownership" of a portfolio to a different nominal owner if
he found the current nominal owner difficult to work with.

Tucker and Muir also arranged a sham transaction in
which one of the Tribes purportedly purchased Tucker's
loan processing company, CLK Management ("CLK"),
which then changed its name to AMG Services ("AMG").
For the purchase of CLK, which made hundreds of
millions of dollars in annual revenue, the Tribe
ostensibly paid Tucker just over $135,000. However, the
money in fact came from an [*113] account controlled
by Tucker, meaning that Tucker paid himself in order to
make it appear that the company had been purchased
by the Tribe.
These charades were spectacularly successful, for a
time. Tucker's loans attracted scores of complaints from
borrowers and several investigations by state
authorities. By invoking the Tribes' sovereign immunity,
however, Tucker and Muir were able to successfully
quash subpoenas from and secure dismissal of state

Tucker and Muir engaged in a variety of deceptive
strategies to give the false appearance that the Tribes
owned and operated the lending business. As with the
Nevada shell corporations, the portfolios listed tribal
mailing addresses rather than the business's actual
location in Overland Park, Kansas. When the Tribes

7

Page 8 of 15
961 F.3d 105, *113; 2020 U.S. App. LEXIS 17330, **14
regulatory enforcement actions. In doing so, Tucker's
attorneys submitted false affidavits that materially
misrepresented the role of the Tribes in the lending
business. In addition, when a borrower complained that
the loans were unenforceable under the law [**15] of
her state, Tucker's employees responded that the loans
were enforceable, and the borrower was obligated to
pay, because the loan was owned by a Native American
tribe.

DISCUSSION

On this appeal seeking to set aside their convictions,
Defendants' principal contention is that the court gave
an erroneous and prejudicial jury instruction as to the
mental state element of the usury-based charges. In the
court's instruction to the jury on element six of Count 1
(which charged [**17] a RICO conspiracy to lend at
rates that were usurious under various state laws), and
by extension on Counts 2-4 (which charged substantive
RICO offenses based on unlawful usurious lending), the
court told the jury that the Government could show
Defendants "willfully" participated in the conduct of
Tucker's enterprise through the collection of unlawful
debt if it proved that they "acted deliberately, [*114]
with knowledge of the actual interest rate charged on
the loan[s]." App'x at 264-65.

While at trial Tucker and Muir disputed any intention to
deceive, they did not meaningfully dispute that the
above described actions took place. Prior to trial, they
filed a motion to dismiss the unlawful debt counts,
contending in relevant part that the loans did not
constitute "unlawful debt" under 18 U.S.C. § 1961(6)
because the loans were authorized under tribal law and
were therefore not prohibited by state usury laws. The
district court denied the motion, reasoning that, if the
allegations in the indictment were true, because the
loans were not issued by tribal entities but by
businesses controlled entirely by Tucker, and because
the Tribes had no meaningful role in the business,
principles of tribal sovereign immunity did not apply. At
trial, Tucker and Muir argued that even if the loans were
unlawful, their conduct was not "willful" because they
had a good faith belief, based on advice of counsel
regarding principles of tribal sovereign immunity, that
their conduct was lawful.

Defendants contend that this instruction was
inconsistent with how willfulness is generally understood
in the criminal context, which requires that a defendant
be aware of the unlawful nature of the conduct. 2
Moreover, Defendants conceded at trial that they were
aware of the interest rates charged on the loans, but
argued that they believed in good faith that their conduct
was lawful. They contend that the erroneous charge in
effect directed a verdict of guilty on Counts 1-4. The
Government agrees that it was required to prove
willfulness, but it contends that the instruction was
correct.

As noted, after a lengthy trial, a jury convicted
Tucker [**16] and Muir on all fourteen counts. The
verdict sheet also posed a special interrogatory, to be
answered subsequent to the jury's determination of guilt:
"Has the government proven beyond a reasonable
doubt that, at the time of collection of any of the loans
you found as the basis of a guilty verdict on Counts Two
through Four, the lender, in fact, was defendant Scott
Tucker or an entity owned or controlled by him?" The
jury answered, "Yes."

We reject Defendants' challenge. Because Defendants
failed to preserve their objection to the instruction in the
manner prescribed [**18] by Federal Rule of Criminal
Procedure 30, we review for plain error. Even assuming
that the instruction was in error-a question we do not
resolve-we find that the error does not satisfy the plain
error standard. Taken together with other instructions
given by the court to the jury, the instruction now
challenged did not affect Defendants' substantial rights,
did not "seriously affect□ the fairness, integrity, or public
reputation of judicial proceedings," Johnson v. United
States, 520 U.S. 461, 467, 117 S. Ct. 1544, 137 L. Ed.
2d 718 (1997) . and did not cause a "miscarriage of

Additionally, following the Defendants' convictions, the
court entered a preliminary forfeiture order against
Tucker, including a money judgment in the amount of
$3.5 billion and the forfeiture of certain specific property.
Tucker moved for a stay of the forfeiture order pending
appeal of his conviction, which the district court denied.

See Bryan v. United States, 524 U.S. 184, 191-92. 118 S. Ct.
1939, 141 L. Ed. 2d 197 (1998) ("As a general matter, when
used in the criminal context, a 'willful' act is one undertaken
with a 'bad purpose,"' such that "in order to establish a 'willful'
violation of a statute, 'the Government must prove that the
defendant acted with knowledge that his conduct was
unlawful."' (quoting Ratz/at v. United States, 510 U.S. 135,
137, 114 S. Ct. 655, 126 L. Ed. 2d 615 (1994))) .

2

The Defendants appeal their convictions, and Tucker
appeals from the district court's denial of the stay of
forfeiture.

8

Page 9 of 15
961 F.3d 105, *114; 2020 U.S. App. LEXIS 17330, **18
357 F.2d 606, 613 (2d Cir. 1966) ("Since it is apparent
that both Court and counsel were fully cognizant of the
issues being raised- and since any further showing
would have been an exercise in futility- it is entirely
proper that we consider the [issue raised] on appeal.");
cf. Thornley v. Penton Publ'g, Inc., 104 F.3d 26, 30 (2d
Cir. 1997) (holding, in the civil context, in which a similar
principle applies, that the futility standard was met
where an appellant had "argued its position to the
district judge, who rejected it, [and] a further exception
after delivery of the charge would have been a mere
formality, with no reasonable likelihood of convincing the
court to change its mind on the issue").

justice," United States v. Frady, 456 U.S. 152, 163, 102
S. Ct. 1584, 71 L. Ed. 2d 816 (1982) . Indeed we
conclude, based on the jury's findings under other
instructions, that the instruction alleged to have been
error had no effect whatsoever on the verdict.
Accordingly, reversal is not warranted under the plain
error standard . We also reject Defendants' other
arguments as without merit.

I. Willfulness Charge

Although the Defendants had argued their position at a
mid-trial charge conference, neither raised an objection
to the instruction following the jury charge. App'x at 300.
Accordingly, their objection to the willfulness charge is
subject to plain error review unless "taking further
exception under the circumstances would have been
futile." See Rosemond, 841 F.3d at 107.

a. Plain Error Review Applies
HN1('1] Where a claim of error in the court's instruction
to the jury is properly preserved , we review that claim de
novo, reversing if, "viewing the charge as a whole, there
was a prejudicial error." United States v. Quattrone. 441
F.3d 153, 177 (2d Cir. 2006) . In order to be preserved,
an objection to the jury instructions must be made by
"inform[ing] the court of the specific objection and the
grounds for the objection before the jury retires [**19] to
deliberate." See Fed. R. Crim. P. 30(d) . This objection
generally must occur after the instruction is given to the
jury, that being the court's clearest opportunity to fix a
mistake that might otherwise require retrial. See Fogarty
v. Near North Ins. Brokerage, Inc.. 162 F. 3d 74, 79 (2d
Cir. 1998). Failure to object in the manner prescribed by
the rule , so as to give the court a clearly framed
opportunity to correct an error in the charge, results in
forfeiture of de novo review of the error. Where the
claim of error in the charge is not properly preserved, it
is reviewed instead under the far more exacting
standard of plain error, as specified in Rule 52(b) . Fed.
R. Crim. P. 30(d) . ("Failure to object in accordance with
[Rule 30(d)] precludes appellate review, except as
permitted under Rule 52(b) .").

We see no basis for concluding that it would have been
futile for Defendants to renew their objection . When the
issue was earlier discussed at the charge conference,
the court expressed [**21] uncertainty as to how to
charge on state of mind. App'x at 210-17. The next day,
counsel for Muir raised the issue again, arguing that the
statement in the proposed charge that the Government
could show willfulness by proving that the Defendants
"acted deliberately with knowledge of the actual interest
rate" was inconsistent with the definition of willfulness
and should be removed. Id. at 228. After listening to
argument on the question, the court thanked counsel
and ended the session without giving a conclusive
response. Id. at 230. Indeed, as Tucker acknowledged
in his appellate brief, "The court thanked counsel for her
comments but did not rule on the objections." Tucker Br.
at 38 (emphasis added).
On that record, it cannot be said that the district court
had rejected the Defendants' position, making clear that
a further objection after delivery of the charge "would
have been a mere formality, with no reasonable
likelihood of convincing the court to change its mind on
the issue." Thornley, 104 F.3d at 30. Had the
Defendants reasserted their argument after the charge,
it is entirely possible that the court would have accepted
the argument and given a new instruction on the
required state of mind, conserving judicial resources by
obviating [**22] the need for appeal and potential
retrial. Accordingly, we review for plain error.

[*115] HN2["i'] The preclusion of de novo appellate
review, however, is not absolute. If the party that failed
to object following the jury charge had previously
objected, making its position clear, and it was evident in
the circumstances that renewal of the objection would
be futile because the court had clearly manifested its
intention to reject the objection, the failure to renew the
objection as specified in Rule 30(d) does not forfeit de
novo review. See United States v. Rosemond, 841 F.3d
95, 106-07 (2d Cir. 2016) (a defendant's failure to renew
an objection will not forfeit de novo review if "taking
further [**20] exception under the circumstances would
have been futile") ; see also United States v. Freeman,

9

Page 10 of 15
961 F.3d 105, *115; 2020 U.S. App. LEXIS 17330, **22

b. The Error, If Any, Does Not Satisfy the
Requirements of "Plain Error"

HN3['i-'] When the plain error standard of review
applies, the Court of Appeals may vacate a conviction
on account of a challenged jury instruction if the
instruction contains "(1) error, (2) that is plain, and (3)
that affect[s] substantial rights." United States v. Botti.
711 F.3d 299, 308 {*1161 (2d Cir. 2013) (quoting
Johnson v. United States. 520 U.S. 461. 467. 117 S. Ct.
1544. 137 L. Ed. 2d 718 (1997)). In addition, the error
must "seriously affect□ the fairness, integrity, or public
reputation of judicial proceedings." Johnson. 520 U.S. at
467 (quoting United States v. Olano. 507 U.S. 725. 732.
113 S. Ct. 1770. 123 L. Ed. 2d 508 (1993)). In most
cases, to "affect substantial rights" the error "must have
been prejudicial: It must have affected the outcome of
the district court proceedings." Olano. 507 U.S. at 734 .
The Supreme Court has cautioned that Rule 52(b)
authorizes the Courts of Appeals to correct "particularly
egregious errors," and is to be "used sparingly, solely in
those circumstances in which a miscarriage of justice
would otherwise result." Frady. 456 U.S. at 163 & n.14 ;
accord United States v. Young. 470 U.S. 1. 15. 105 S.
Ct. 1038, 84 L. Ed. 2d 1 (1985) . The burden is on the
defendant to demonstrate that these criteria for relief are
met. United States v. Boyland. 862 F.3d 279. 289 (2d
Cir. 2017) .3
We conclude that, even if the challenged instruction was
erroneous, the error did not satisfy the requirements
of [**23] the plain error standard. In instructing the jury
as to willfulness in regard to the conspiracy element of
Count 1 (the RICO conspiracy count), the court barred
the jury from rendering a guilty verdict on that count
unless it found beyond a reasonable doubt that [*117]

In United States v. Viola. 35 F.3d 37. 41-42 (2d Cir. 1994).
abrogated on other grounds by Salinas v. United States. 522
U.S. 52, 118 S. Ct. 469, 139 L. Ed. 2d 352 (1997) , this circuit
held that where an error results from a supervening decision
that alters the applicable law, the burden is on the government
with respect to the third element of plain error analysis to show
that the error was not prejudicial. We have repeatedly
expressed doubt whether this "modified" version of plain error
review survived the Supreme Court's decision in Johnson v.
United States, 520 U.S. 461, 117 S. Ct. 1544, 137 L. Ed. 2d
718 (1997) . See Boyland, 862 F.3d at 289. We have no
occasion to decide that issue here, because the error did not
result from a supervening decision, and so, even assuming
that Viola remains good law, its "modified plain-error" standard
would not apply.

the Defendants were aware of the unlawfulness of their
lending scheme. The guilty verdict on Count 1 thus
demonstrates that the jury was satisfied beyond a
reasonable doubt that the Defendants acted with the
mental state that Defendants argue was required for
Counts 2-4.
In its charge on Count 1, the court instructed the jury on
willfulness twice: (1) in the context of element two, that
the Defendants "knowingly and willfully joined the
conspiracy;" and (2) in the context of element six, that
the Defendants "willfully and knowingly agreed to
participate . . . in the affairs of the Tucker payday
organization through collection of an unlawful debt." The
portion of the instruction Defendants now challenge
applied only to element six (and was incorporated by
reference into the instructions for the substantive RICO
counts, Counts 2-4).
As to element two (knowingly and willfully joining the
conspiracy), the court instructed the jury [**24] that
"[w]illfully means to act deliberately and with a purpose
to do something that the law forbids," and that to be
convicted under Count 1 the Defendants "must have
been aware of the generally unlawful nature of [their]
act[s] ." App'x at 258-59 . The jury found the Defendants
guilty under Count 1. Therefore, the jury necessarily
found that they knew the unlawful nature of the lending
they conspired to engage in-the same lending that
formed the basis of element six and that was charged
as a substantive offense in Counts 2-4. Because the
jury found in connection with the conspiracy element
that the Defendants were aware of the unlawful nature
of their conduct, there is no risk that the jury could have
found them guilty on the "collection of an unlawful debt"
element of Counts 1-4, involving the loans that were the
object of the conspiracy charged in Count 1, without
being satisfied beyond a reasonable doubt that the
Defendants were aware of the unlawful nature of their
conduct.

3

Furthermore, the Government presented overwhelming
evidence that Defendants were aware of the unlawful
nature of the loans, in the form of Defendants' extensive
efforts to conceal their lending activities and to create a
sham [**25] illusion that the lending was done by
Native American tribes, precisely so that state usury
laws would not seem to apply. See United States v.
Atkins. 869 F.2d 135. 139 (2d Cir. 1989) (finding
"specious" defendants' claim that they were unaware
that their actions were illegal, in light of the strength of
evidence of lies and concealment); see also Bryan. 524
U.S. at 189 & n.8 (concluding that willfulness in illegal

10

Page 11 of 15
961 F.3d 105, *117; 2020 U.S. App. LEXIS 17330, **25
firearms sales was satisfied by showing that defendant
used "straw purchasers" and shaved off gun serial
numbers).
Uncontradicted evidence showed that the Defendants:
(1) prohibited employees from revealing the business's
Kansas location, and instructed them to falsely claim
that they were located on tribal land; (2) caused mail
related to the lending business to be sent to the Tribes
and then forwarded unopened to the Kansas office,
giving a false impression that lending activity occurred
on tribal lands; (3) required tribal officials to perform
fake loan approvals on designated iPads in order to give
the appearance that they were involved in the loan
approval process; (4) set up a sham transaction in
which AMG, a company controlled by Tucker,
"purchased" CLK (using money controlled by Tucker) in
order to give the appearance of tribal ownership;
and [**26] (5) caused attorneys to submit affidavits in
state court actions that contained inaccurate
descriptions of a purported tribal role in administering
the loans. In light of this evidence, we have no doubt
that, if the willfulness instruction challenged by
Defendants was erroneous, the error did not affect the
verdict.
The court's charge did not adversely "affect□ substantial
rights," Botti. 711 F.3d at 308, "seriously affect□ the
fairness, integrity, or public reputation of judicial
proceedings," Johnson, 520 U.S. at 467, or cause a
"miscarriage of justice" in these circumstances, Frady,
456 U.S. at 163. Defendants' argument is that the jury
should not have been allowed to convict on the
substantive unlawful debt counts unless it found that the
Defendants were aware of the unlawful nature of their
conduct. Taking into account the charge as a whole, the
jury did find (based on overwhelming evidence of that
fact) that the Defendants were aware of the unlawful
nature of the lending scheme.
In reaching this conclusion, we express no view on
whether willfulness or awareness of unlawfulness was
required for conviction under Counts 2-4. We note,
however, that were it not for the fact that the Defendants
failed to satisfy the plain error standard, we would
face [**27]
confusing and arguably incompatible
precedents regarding the required mental state for a
RICO offense involving unlawful debt. One source of the
difficulty is that a RICO unlawful debt offense can be
predicated on a violation of a state's civil usury statute,
and that many such civil statutes impose no state of
mind requirement at all. Certain applications of RICO in
this context are thus in tension with the Supreme Court's

recent reaffirmation of a "presumption in favor of a
scienter requirement" [*118] applicable to "each of the
statutory elements that criminalize otherwise innocent
conduct." E/onis v. United States. 575 U.S. 723, 135 S.
Ct. 2001, 2011, 192 L. Ed. 2d 1 (2015) (quoting United
States v. X-Citement Video, Inc.• 513 U.S. 64. 72, 115
S. Ct. 464, 130 L. Ed. 2d 372 (1994)) . Although we need
not, and do not, resolve these issues here, we discuss
them briefly in the hope of exposing some of the
potential problems.
For starters, our 1986 opinion in United States v.
Biasucci, 786 F.2d 504 (2d Cir. 1986) . written in the
early days of RICO adjudications, ostensibly adopted
two incompatible state-of-mind standards. The case, like
this one, involved a RICO prosecution for collection of
debts that were unlawful under state law. On the one
hand, our opinion declared that RICO requires "that the
defendant acted knowingly, willfully and unlawfully,"
Biasucci, 786 F.2d at 513-the statement Defendants
here rely on for their argument that the
Government [**28] was required to prove willfulness. At
the same time, the Biasucci opinion upheld the RICO
convictions on the ground that RICO imposes no mental
state requirement beyond that required by the predicate
state statute. Biasucci, 786 F.3d at 512. The issue
raised on the appeal was the defendants' contention
that the government was required to prove their
knowledge of the specific interest rates being charged
on the loans they were collecting. We affirmed the
convictions on the ground that there was no such
requirement under the predicate state statute and
therefore no such requirement imposed by RICO. The
prosecution was predicated on the defendants' violation
of New York Penal Law§ 190.40. That statute required
proof that the defendant knowingly took or received
interest at a rate exceeding 25% per annum. It did not,
however, require that the defendant know either the
precise rate being charged, or that the rate was illegal. 4

4 The

statute's phrase "knowingly charges .. . any money or
other property as interest .. . at a rate exceeding twenty-five
per centum per annum," N. Y. Penal Law§ 190.40 (McKinney
Supp. 1986). might conceivably be read to require knowledge
that 25% was the maximum lawful rate-which, combined with
the knowledge that the rate charged exceeded 25%, would
constitute knowledge of unlawfulness. However, the Court of
Appeals had previously made clear in Freitas v. Geddes S&L
Ass'n, 63 N. Y.2d 254. 471 N.E.2d 437, 481 N.Y.S.2d 665
(1984) , that § 190.40 does not require knowledge of the
unlawfulness of the act. Although Freitas involved a civil usury
statute and not § 190.40, the majority characterized the
dissent's test-under which "knowingly" requires "knowledge

11

Page 12 of 15
961 F.3d 105, *118; 2020 U.S. App. LEXIS 17330, **28
Accordingly, after stating in dictum that RICO requires
proof that the defendant acted willfully, the court upheld
the convictions based on a standard that did not require
a showing of willfulness or of awareness of the unlawful
nature of the conduct.
Apart from its internal inconsistency, the Biasucci [**29]
holding that no proof of state of mind is required beyond
what is required by the state statute can be difficult to
reconcile with the Supreme Court's later insistence in XCitement Video and Elonis on a "presumption [in the
interpretation [*119) of criminal statutes] in favor of a
scienter requirement," applicable to "each of the
statutory elements that criminalize otherwise innocent
conduct." Elonis, 135 S. Ct. at 2011 . The Biasucci
formulation would, under certain circumstances,
authorize conviction under RICO of a defendant who
neither knew the rate of interest charged nor that the
rate charged was illegal.
That difficulty is exacerbated if the principle espoused in
Biasucci (and other cases)-that RICO imposes no
knowledge requirement beyond what is imposed by the
predicate state law-applies even when the
unlawfulness under state law is predicated on a state
civil statute.

HN4('!F] RICO offenses may be predicated on a single
instance of collection of unlawful debt, as well as on a
pattern of racketeering activity. See 18 U.S.C. § 1962;
United States v. Giovanelli, 945 F.2d 479, 490 (2d Cir.
1991). While "racketeering activity" is generally
understood to encompass only criminal offenses, see
Durante Bros. & Sons. Inc. v. Flushing Nat'/ Bank, 755
F.2d 239, 247 (2d Cir. 1985) . the RICO statute defines
"unlawful debt" to include any debt "which is
unenforceable under State or Federal [**30) law . . .
because of the laws relating to usury" and "which was
incurred in connection with ... the business of lending
money or a thing of value at a rate usurious under State
that the facts exist which constitute the offense, not knowledge
of the unlawfulness of the act"-as being "akin to the standard
utilized by [§ 190.401." Freitas, 63 N. Y.2d at 264; id. at 267
(Simons, J., dissenting). Similarly, as to the civil statute at
issue, the Freitas majority noted that "[ilf the note or bond
shows a rate of interest higher than the statutory lawful rate, it
would be immaterial whether the lender actually intended to
violate the law." Id. at 262. Thus, while "knowingly" in § 190.40
might on its face be read to require awareness of
unlawfulness, precedent made clear that "knowingly" was
satisfied by knowledge that the interest rate exceeded 25%,
regardless of whether the defendant was aware that such rate
was unlawful.

or Federal law, where the usurious rate is at least twice
the enforceable rate." 18 U.S.C. § 1961(6) (emphasis
added). This definition "includes debts that would be
usurious under the laws of several states, and hence
unenforceable, but that would not violate [any state]
criminal usury laws." Durante Bros., 755 F.2d at 247
(emphasis in original). Thus, the criminal RICO offense
of participating in the conduct of an enterprise's affairs
through collection of unlawful debt may arguably be
predicated on a violation of only civil usury laws.

HN5('!F] Some such state civil statutes render debt
unlawful and unenforceable solely by reason of the rate
of interest charged, without regard to the mental state of
the lender or collector. Such statutes provide simply that
loans carrying an interest rate above a specified
threshold are void and unenforceable. A debt charging
interest that exceeds the threshold rate and is incurred
in connection with the business of lending money at
twice the enforceable rate would thus appear to fit within
the definition of "unlawful debt" under [**31) 18 U.S.C.
§ 1961(6), and could thus arguably serve as the
predicate for a RICO offense, regardless of what the
lender knew or intended.
Indeed, several of the state usury statutes underlying
the RICO charges in this case are of precisely this
nature. For instance, the payday loan statute in New
Hampshire, which was the location of one of the
customers named in Count 2, provides: "The annual
percentage rate for payday loans shall not exceed 36
percent," N.H. Rev. Stat. § 399-A:17(/), and makes
payday loans in excess of 36 percent unenforceable,
regardless of mental state, see id. § 399-A:23{VII/) ("If
charges in excess of those permitted by this chapter
shall be charged . . . the contract of loan shall be void
and the lender shall have no right to collect or receive
any charges, interest, or recompense whatsoever.").
HN6[:if] Similarly, New York's civil usury statute, which
was specifically listed in the indictment, and which
applies to loans listed in all three substantive RICO
counts, provides that the maximum interest rate "shall
be sixteen per centum per annum." N. Y. Banking Law§
14-a(1); N. Y. Gen. Oblig. Law§ 5-501 . The New York
law also provides that "[a]II bonds, bills, notes,
assurances, conveyances, all other contracts or
securities [*120) whatsoever . . . whereupon or
whereby there shall be reserved or [**32) taken ... any
greater sum, or greater value, for the loan or
forbearance of any money, . . . than is prescribed in
section 5-501 , shall be void ." N. Y. Gen. Oblig. Law§ 5511 . Thus, loan contracts with an interest rate
exceeding 16% are unenforceable under New York's

12

-

Page 13 of 15
961 F.3d 105, *120; 2020 U.S. App. LEXIS 17330, **32
civil usury law, regardless of the mental state of the
lender.
It is unclear whether the Biasucci court would have
intended its holding, that "RICO imposes no additional
mens rea requirement beyond that found in the
predicate crimes," Biasucci. 786 F.2d at 512, to apply
also to criminal RICO charges predicated on civil usury
statutes such as these. Biasucci itself involved a RICO
offense that was based solely on New York's criminal
usury statute. And Biasucci consistently refers to the
predicate crimes, perhaps suggesting that the court did
not contemplate that the same rule would apply to RICO
offenses based on loans that were unenforceable under
state civil usury statutes. Moreover, the cases that
Biasucci relied upon for that rule involved racketeeringbased RICO charges predicated on criminal violations of
the Taft-Hartley Act. See United States v. Boylan, 620
F.2d 359 (2d Cir. 1980); United States v. Scotto, 641
F.2d 47 (2d Cir. 1980). None involved RICO charges
based on civil statutes. HN°'lf"FJ If, however, a
defendant may be convicted under RICO for
participation in the making or collecting [**33) of a loan
merely because a state civil statute renders the loan
unenforceable by reason of the interest rate , without any
requirement whatsoever as to the defendant's state of
mind, in some circumstances this would authorize
racketeering convictions where the defendant had not
only committed no state law offense, but had done
nothing that would offend social mores.

HNB['¥'] As noted above, a RICO prosecution can be
predicated on a single instance of collection of unlawful
debt. And what the RICO statute calls an "enterprise"
can be "any individual, partnership, corporation,
association, or other legal entity," 18 U.S.C. § 1961(4)so long as it is "engaged in, [or its activities] affect,
interstate commerce," id. § 1962(c). And high interest
rates can result from application of reasonable service
fees to small debit balances in circumstances that do
not partake of the predatory lending practices exhibited
in this case (or those seen in Biasuccl) . Consider a store
that sells goods coming from different states, which
allows customers charge accounts and follows a policy
for accounts that remain unpaid after four months to
impose a modest one-time$ 15 service fee (considered
interest under usury laws) and begin charging
interest [**34) at an unobjectionable rate. An employee
who "participates in the conduct" of the business's
affairs by overseeing the billing process, 5 say, the credit

5 The

statutory requirement that the defendant "conduct or

manager, might face [*121) federal criminal liability as
a racketeer, although having committed no offense
under state law or even acted unreasonably, for mailing
a monthly bill that charged the $ 15 fee where the
customer's unpaid balance was sufficiently small. If
RICO liability requires no proof of state of mind other
than what is required to show that the loan is
unenforceable under the predicate state statute and this
rule applies where unenforceability under state law
depends on only the interest rate (without regard to
state of mind) or even where, as in Biasucci, criminal
liability under the state's law does not require
awareness of the illegality of the rate, this can produce
criminal liability for racketeering for unexceptionable
conduct. We have serious doubts that such a rule
appropriately "separate[s] wrongful conduct from
otherwise innocent conduct." Elonis. 135 S. Ct. at 2010
(internal quotation marks omitted).
Because, as explained above, the jury necessarily found
that the Defendants acted willfully in rendering a guilty
verdict [**35] on Count 1, and because the evidence of
willfulness was overwhelming in any event, the
Defendants have not met their burden of showing plain
error. While the issues we have discussed will pose
troublesome questions in future cases, we have no
occasion to resolve those difficulties in this case, and do
not purport to do so.

participate . . . in the conduct" of the enterprise's affairs, 18
U.S.C. § 1962(c). likely shields the lowest rung of employees
from RICO liability. See Reves v. Ernst & Young. 507 U.S.
170. 179. 113 S. Ct. 1163. 122 L. Ed. 2d 525 (1993) (requiring
that the defendant have "some part in directing the
enterprise's affairs" to be liable under § 1962(c) (emphasis in
original)); United States v. Viola. 35 F.3d 37. 41 (2d Cir. 1994)
(finding erroneous under Reves a jury instruction that
perm itted conviction as long as the defendants performed
duties that were "necessary and helpful" to the operation of
the RICO enterprise). But the Supreme Court in Reves
clarified that § 1962(c) could extend to "lower rung"
participants who participate in the operation of the enterprise,
and it declined to decide "how far § 1962(c) extends down the
ladder of operation." Reves. 507 U.S. at 184 & n.9. We know
of no case setting a precise lower bound for the position within
the ladder required for § 1962(c) liability, but it is clear that
some degree of discretionary authority is sufficient. See United
States v. Diaz. 176 F.3d 52. 92-93 (2d Cir. 1999) (holding that
evidence was sufficient to meet the Reves standard because
defendants were "on the ladder [of operation], rather than
under it" and exercised "discretionary authority" in carrying out
instructions). Thus, many "lower rung" employees remain
potentially subject to RICO charges for their activities relating
to a RICO enterprise.

13

Page 14 of 15
961 F.3d 105, *121; 2020 U.S. App. LEXIS 17330, **35

II. Defendants' Other Arguments Are Without Merit
Defendants also argue ( 1) the district court erred by
excluding the testimony of Defendants' expert witness,
attorney Gavin Clarkson , on the topic of tribal sovereign
immunity; (2) there was insufficient evidence that
Defendants engaged in wire fraud by misleading
borrowers to believe that Native American tribes were
the true lenders, because Defendants had a good faith
belief that the Tribes were in fact the lender; and (3) the
loans here did not constitute "unlawful debt" as defined
under RICO because, due to principles of tribal
sovereign immunity, state usury laws are not
"enforceable" against tribal loans. These contentions
are without merit.

-

We reject Defendants' contention that the district court
erred by excluding Clarkson's testimony. HN9[1"] A
district court's decision to exclude expert testimony is
reviewed for abuse [**36] of discretion. Zaremba v.
Gen. Motors Corp .• 360 F.3d 355. 357 (2d Cir. 2004) .
Regardless of whether Clarkson's testimony was being
offered to show that Defendants had an innocent state
of mind regarding the legality of their loans, or to show
that their lending practices were in fact not illegal, the
court committed neither error nor abuse of discretion in
excluding it. As to the former issue, Clarkson did not
advise the Defendants, and so his proposed testimony
would not have been probative of what they understood.
HN10[~ ] As for the legal issue of the lawfulness of the
loans, "[w]e have consistently held . . . that expert
testimony that usurps . . . the role of the trial judge in
instructing the jury as to the applicable law . . . by
definition does not aid the jury in making a decision,"
and is therefore inadmissible under Federal Rule of
Evidence 702. Nimely v. City of New York. 414 F.3d
381. 397 (2d Cir. 2005) (internal quotation marks and
citation omitted).

-

We also reject Defendants' contention that there was
insufficient evidence of wire fraud consisting of
misrepresenting the identity of the lender. HN11 [,.._] On
a [*122] defendant's challenge to his conviction based
on the sufficiency of evidence, "we view the evidence in
the light most favorable to the government, drawing all
inferences in the government's favor." United States v.
Hawkins. 547 F.3d 66. 70 (2d Cir. 2008) (internal
quotation marks omitted). [**37] There was extensive
evidence that Defendants were aware that the Tribes
were not the true lender, and that they falsely
represented this was the case in order to evade state
regulators and to convince borrowers to make payments

-

on the unlawful terms they offered . Testimony of
multiple witnesses established that the Tribes had no
meaningful influence or control over the lending
business, but rather served merely as a cover.
Defendants
made
extensive
and
sometimes
extraordinary efforts, described above, to create a false
impression that the Tribes were involved in the lending.
The evidence was more than sufficient for the jury to
conclude that Tucker and Muir knew that the Tribes
were not the lender, but falsely represented that they
were.
We reject Defendants' argument that the loans were not
"unlawful debt" as defined by RICO because, due to
principles of tribal sovereign immunity, state usury laws
are not enforceable against tribal loans. The district
court correctly concluded (in its opinion denying
Defendants' motion to dismiss the indictment) based on
the facts alleged in the indictment-and subsequently
demonstrated at trial-that the Tribes' involvement in
the lending business was [**38] a sham, so that
principles of tribal sovereign immunity had no
application to Tucker's non-tribal business. We reject
the Defendants' further contentions as frivolous .

Ill. The District Court Did Not Abuse Its Discretion In
Denying Tucker's Application For a Stay of the
Forfeiture Order
Tucker also argues that the district court erred in
denying his application to stay execution of the forfeiture
order against him pending his appeal of the underlying
convictions. Following Tucker's conviction, in April 2018
the district court entered a preliminary forfeiture order
against him, including a money judgment in the amount
of $ 3.5 billion and the forfeiture of certain specific
property, including ten cars, two residences, and
jewelry. Tucker moved for a stay of the forfeiture order
in the district court, arguing he was likely to succeed on
the merits of his appeal, that the property at issue would
likely increase in value and had intrinsic value to him,
and that the government could offset the cost of
maintaining the property pending the outcome of his
appeal by renting the real property. The district court
rejected Tucker's motion, finding that under the factors
set out in United States v. Silver. 203 F. Supp. 3d 370.
385 (S.D.N. Y. 2016) , Tucker's likelihood [**39] of
success on appeal was low, and the cost to the
government of maintaining the assets would be high .
The district court did , however, impose a stay as to the
sale of the family residence. Tucker then appealed from
the denial of the stay of the forfeiture order.

14

Page 15 of 15
961 F.3d 105, *122; 2020 U.S. App. LEXIS 17330, **39

HN12["Ii] A district court may stay a forfeiture order
pending appeal "on terms appropriate to ensure that the
property remains available pending appellate review."
Fed. R. Crim. P. 32.2(d) . While neither the Federal
Rules nor this Court's precedent set out factors that
pertain explicitly to stays of forfeiture orders, we have
expressed standards generally governing applications to
stay district court orders or proceedings pending appeal
as follows: "(1) whether the stay applicant has made a
strong showing that he is likely to succeed on the
merits; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the
[*123) stay will substantially injure the other parties
interested in the proceeding; and (4) where the public
interest lies." In re World Trade Ctr. Disaster Site Utiq.•
503 F.3d 167, 170 (2d Cir. 2007) (internal quotation
marks and footnote omitted); see also United States v.
Gelb. 826 F.2d 1175. 1177 (2d Cir. 1987) (applying
traditional stay factors in deciding an interlocutory
appeal of a pretrial restraining order enjoining the
transfer of assets subject [**40) to criminal forfeiture).
HN13["Ii] We review the denial of a stay for abuse of
discretion. See Pravin Banker Assocs .• Ltd. v. Banco
Popular Del Peru. 109 F.3d 850. 856 (2d Cir. 1997) .

For the foregoing reasons, the judgment of the district
court is AFFIRMED.

The district court, like others in our circuit facing similar
fact patterns, applied the slightly modified version of the
traditional stay factors articulated by the district court in
Silver. "1) the likelihood of success on appeal; 2)
whether the forfeited asset is likely to depreciate over
time; 3) the forfeited asset's intrinsic value to defendant
(i.e., the availability of substitutes); and 4) the expense
of maintaining the forfeited property." Silver. 203 F.
Supp. 3d at 385; see also United States v. Nqari. 559 F.
App'x 259. 272 (5th Cir. 2014) (analyzing denial of stay
by considering "(1) the likelihood of success on appeal;
(2) whether the forfeited assets will depreciate over
time; (3) the forfeited assets' intrinsic value to the
defendant; and (4) the expense of maintaining the
forfeited property").
Under any such test, we hold that the district court did
not abuse its discretion in denying Tucker a stay of the
forfeiture order. Tucker was indeed unlikely to succeed
on the merits of his appeal. Nothing in the record
contradicts the district court's finding that the cost of
maintaining the assets was high, and that the property
had no intrinsic value for Tucker; nor did the
record [**41) show that the property was more likely to
increase, than decrease, in value.

CONCLUSION

15

End of Document

Case 18-184, Document 259, 07/30/2020, 2896831, Page1 of 28

18-181
18-184 (CON)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
UNITED STATES OF AMERICA,
Appellee,
-against-

CRYSTAL GROTE, AKA CRYSTAL CRAM, AKA
CRYSTAL CRAM-GROTE, AKA CRYSTAL STUBBS,
Defendant,
and

TIMOTHY MUIR, SCOTT TUCKER,
Defendants-Appellants.
ON APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF NEW YORK

PETITION FOR PANEL REHEARING
FOR DEFENDANT-APPELLANT
SCOTT TUCKER

BEVERLY VAN NESS
Attorney for Defendant-Appellant
Scott Tucker
233 Broadway, Suite 2704
New York, New York 10279
(212) 274-0402

16

Case 18-184, Document 259, 07/30/2020, 2896831, Page2 of 28

TABLE OF CONTENTS

Page
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE .. ...... ... ...... . . .. ... . . . . ..... . ... .. 2
ARGUMENT ... ... . .... . . . . ..... . ... .. ... ........ . . . . .... . .... .. 3
The defendants preserved their objection to the charge that, in
considering counts associated with the collection of unlawful debt,
the jury could find they acted willfully if they were aware of the
interest rates charged on the loans - a fact they had conceded . . . . . . . . . 3
Tucker's claim that the district court unfairly imposed a date
limitation on the legal advice received was not frivolous and
should be addressed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION..... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
ADDENDUM

TABLE OF AUTHORITIES

United States v. Johnson, 139 F.3d 1359 (11 Cir. 1998) . . . . . . . . . . . . . . . . . . . 8

1

17

Case 18-184, Document 259, 07/30/2020, 2896831, Page3 of 28

INTRODUCTION

Scott Tucker petitions for panel rehearing of portions of the Court's
decision in United States v. Grote, 961 F.3d 105 (2d Cir. 2020). The Court
affirmed his judgment of conviction. By order dated June 18, 2020, the Court
extended appellant's time to submit a petition to July 31, 2020.
Tucker seeks rehearing on two points. First, the Court held that what it
acknowledged was appellants' "principal claim on appeal" - the district court's
charge on the state-of-mind element of counts charging unlawful collection of debt
- was not preserved for appellate review. The Court therefore analyzed the claim
under the plain error standard, which it held was not satisfied. 961 F.3d at 109,
113-17. Tucker respectfully submits that the Court overlooked a document in his
appendix that establishes the issue was preserved, and that the Court should revise
its opinion accordingly and analyze the claim de novo.
Second, without discussion, the Court dismissed as "frivolous" Tucker's
claim that the district court unfairly limited evidence supporting his advice-ofcounsel defense. Id. at 122. Tucker had contended that in the context of this case,
where the loans were made pursuant to novel and evolving models, he should have
been permitted to present advice received during the course of the years-long
lending period. See Tucker's opening brief on appeal, Point II, pp. 57-60; reply
brief, Point II, pp. 23-26. Tucker respectfully submits that the Court ignored case
law supporting his position, and that it should reconsider and address this issue.

-1-

18

Case 18-184, Document 259, 07/30/2020, 2896831, Page4 of 28

STATEMENT OF THE CASE

Tucker was involved in the payday loan business for many years, first
through association with a Delaware bank, and ultimately with federallyrecognized Indian tribes. He and co-defendant Timothy Muir were convicted at
trial of racketeering (through the collection of unlawful debt), wire fraud, money
laundering and Truth in Lending Act violations.
The government maintained that Tucker's relationships with County Bank
and the Indian tribes were shams, and that the company in Overland Park, Kansas,
which Tucker ran, was the true lender. Representations to the contrary were
fraudulent, and the loans violated state usury laws and, as a consequence, the
federal RICO statute. Appellant's defense centered on his belief that the Kansas
operation serviced the loans, and that the bank, and later the tribal entities formed
pursuant to tribal law, were the lenders. Thus, the interest rates charged were
lawful under the National Bank Act and validly-enacted tribal ordinances.
There was substantial evidence supporting the defense, even in what we
believe was an unfairly truncated record. See Tucker Br., pp. 6-7, 13-15, 21-33.

-2-

19

Case 18-184, Document 259, 07/30/2020, 2896831, Pages of 28

ARGUMENT

I.

The defendants preserved their objection to the charge that, in
considering counts associated with the collection of unlawful debt, the
jury could find they acted willfully if they were aware of the interest
rates charged on the loans - a fact they had conceded.

In its opinion, the Court notes defense objections to the instruction at issue
which the district court did not resolve: "After listening to argument on the
question, the court thanked counsel and ended the session without giving a
conclusive response," citing the defendants' appendix, A. 228. The Court noted
that "Tucker acknowledged in his appellate brief' that the court "did not rule on
the objections," citing Tucker's opening brief at p. 38. 961 F.3d 105, 115. This
was the basis for the Court's view that the error was not preserved, since the
district court had not "rejected the defendants' position, making clear that a further
objection" would be futile. Id.
We did make the acknowledgment the Court references, but on the same
page of Tucker's appellate brief, we noted that "[i]n a final pre-charge letter,
defense counsel reiterated the request to delete the challenged language, which
was inconsistent with the earlier definition of "willfully" and would confuse the
jurors, or at least cabin the language to the element of knowledge," citing A.56061. But the court gave the objected-to instruction. See Tucker opening brief, p.
38. The final pre-charge letter was filed by ECF on October 11, 2017, after the
charge conference that day and before the jurors would be instructed the next day.
It began: "On behalf of the defendants, I make the following requests to charge

-3-

20

Case 18-184, Document 259, 07/30/2020, 2896831, Page6 of 28

(using the Court's most recent draft, dated 10/10/17): For those requests the Court
denies, I take exception in order to preserve the issue for possible appellate
review. All of the requests have previously been made in writing or orally, in
court, except for a request to correct a typographical error on p. 24 .. .. " (see A.
559 [emphasis added]). In pertinent part, item 4 states:
4. On p. 31, in the spillover paragraph at the top,
we ask the Court to delete the last two sentences ("The
government can meet its burden on the 'willfully' and
'knowingly' element by proving a defendant acted
deliberately with knowledge of the actual interest rate
charged on the loan. It may also meet its burden by
showing a defendant acted deliberately with an
awareness of the generally unlawful nature of the loan
and also that it was the practice of the business engaged
in lending money to make such loans.").
As I stated today, this definition of "knowingly
and willfully" is inconsistent with the definitions of
those terms previously given (on p. 25) and will confuse
the jurors.
(A.560 [emphasis added]). After additional explication, (A. 560-61), item 4 ends:
As an alternative (though our first request is to
delete the two sentences altogether), we ask the Court to

-4-

21

Case 18-184, Document 259, 07/30/2020, 2896831, Page? of 28

tie the language to knowledge only. The third sentence
of the spillover paragraph on p. 31 would read, "With
respect to this sixth element of Count One, the
government can establish a defendant acted "knowingly"
by proving either that he had knowledge of the actual
interest rate charged on the loan or that he was aware of
the generally unlawful nature of the loan." This will not
conflict with the definition of "willfully" previously
provided and will not confuse the jurors.
(A. 561 [emphasis added]).
We respectfully submit that the final pre-charge letter was more than
sufficient to preserve our objection to the instruction at issue (and all other
objections set forth in the letter), and that a formal exception after the jury was
charged would have been futile. See discussion of futility doctrine, 961 F .3d at
115. The district court had heard our objection more than once, and its basis, and
it refused to delete the contested language. We note that the government never
suggested in its appellate brief that our claim was unpreserved for appellate review
and should be addressed by this Court as plain error.
Accordingly, we ask the Court to amend its opinion to delete its plain error
analysis and to review the claim de novo. Plain error review is a "far more
exacting standard," and it is the defendant's burden to establish that its criteria
have been met. 961 F.3d at 114, 116. The de novo review standard requires the

-5-

22

Case 18-184, Document 259, 07/30/2020, 2896831, Page8 of 28

government to prove that the charge error is harmless beyond a reasonable doubt.
See Tucker's opening brief, pp. 53-54.
Our prejudice argument was fully-briefed in this Court and will not be
restated here. Suffice it to say that, boiled down to its essence, the jurors were
admonished as follows:
1. the second element of Count One required a finding that the
defendant intentionally ioined the conspiracy, with "intentionally" defined
as "knowingly and willfully," with separate definitions given for the latter;
2. the sixth element of Count One required a finding that the
defendant "knowingly and willfully" joined the conspiracy, and that this
single mens rea element could be proved in one of two ways, one being
simply that the defendant knew the actual interest rates charged on the loans
[which the defendants had conceded they did]; and
3. the fourth element of Counts Two through Four (substantive RICO
counts) - also a single mens rea element - required a finding that the
defendant willfully and knowingly engaged in the collection of unlawful
debt.
(A. 258-59, 263-65, 267). These instructions, which addressed the defendants'
mental state - the only contested issue in the case - were inconsistent and
unquestionably confusing.
The Court has concluded that the guilty verdict on Count One, which
contained a proper definition of "willfully" as to one element (the definition of

-6-

23

Case 18-184, Document 259, 07/30/2020, 2896831, Page9 of 28

"intentionally") necessarily means the jurors found that the defendants had not
believed in good faith that the loans were lawful, and instead had a purpose to do
something that the law forbids, aware of the generally unlawful nature of their
acts. 961 F. 3d at 116-17. Respectfully, the jurors could as easily have found that
since the defendants were aware of the actual interest rates charged, they were
guilty of the substantive RICO counts, and that they were therefore, necessarily,
guilty of agreeing to violate RICO (the conspiracy count).
The erroneous instruction, in sum, obviated the need to consider the factual
basis of the defendants' good faith defense. As noted in our opening brief, the
first question the jurors asked during deliberations was to hear co-defendant
Muir's testimony "that he knew the interest rates were too high" (see Tucker
opening brief, p. 41). The erroneous instruction also abrogated the need to
consider Tucker's advice of counsel defense, which was supported by testimony
from attorneys Clifford Cohen and Conly Schulte (see Tucker Br., pp. 24-30) and,
with respect to the County Bank lending (which also involved the exportation of
interest rates), the testimony of Leonard Goodman (id., pp. 22-24). This defense
had no relevance other than to his state of mind - whether he believed the loans
were lawful notwithstanding his awareness of their high interest rates.
We hope that if the Court considers this issue de novo, it will conclude on
the basis of the record as a whole that it and other rulings of the district court
impermissibly favored the government and undermined - if not eliminated entirely
- the defendants' defense. But even if it does not agree that a new trial is

-7-

24

Case 18-184, Document 259, 07/30/2020, 2896831 , Page10 of 28

warranted, the Court should amend its opinion. As it now stands, an unfair plain
error burden has been placed on the defendants, which they would have to address
when seeking certiorari from the Supreme Court. The plain error holding is an
unwarranted obstacle to what is already a difficult challenge in any case, given
how few cases the Supreme Court agrees to hear.
II.

Tucker's claim that the district court unfairly imposed a date limitation
on the legal advice received was not frivolous and should be addressed.
In Tucker's opening brief, pp. 57-58, we acknowledged the general rule that

an advice of counsel defense applies to advice sought before the charged conduct
begins. However, we cited case law that modifies the rule when the charged
conduct is ongoing. See Tucker Br., p. 58; see also United States v. Johnson, 139
F.3d 1359, 1366 (11 Cir. 1998) (defendant sought advise of counsel early in
conspiracy period, and although he later acquired new, material information, he
continued to follow outdated advice. Court properly instructed that defendant has
a continuing duty to disclose such information to counsel for defense to remain
viable).
Here, there was evidence that Tucker received advice from numerous
attorneys as to the legality of the County Bank lending program and, later, the
tribal lending program which had similar aspects. Both programs were novel.
There was also evidence that the latter model was revised over time, in part due to
scrutiny by regulatory authorities. Yet Tucker' s defense could not be updated
with evidence that he continued to seek legal advice in a good faith effort to

-8-

25

Case 18-184, Document 259, 07/30/2020, 2896831 , Page11 of 28

modify the program so it complied with the law. If the jurors found that the tribal
loans were lawful at the inception, but red flags were later raised that Tucker
ignored, they were free to convict based on events occurring throughout the
decades-long business. The government was permitted to rely on that evidence to
secure a conviction, but Ticker was precluded from countering it with proof of
ongoing legal advice he received, relevant to his state of mind.
Respectfully, the argument that the district court erred in excluding such
evidence is not frivolous as a legal or factual matter. It appears to be a novel issue
in this Circuit, but it is not a specious one. We ask the Court to reconsider the
issue and address it.
CONCLUSION
For the reasons stated, appellant Tucker respectfully requests panel
rehearing and reversal of his convictions.
Dated: New York, New York
July 30, 2020

Isl_ _B_E_V_E_RL_Y_V_A_N_N_E-SS_ __
Attorney for Appellant
Scott Tucker
233 Broadway, Suite 2704
New York, New York 10279
(212) 274-0402

-9-

26

Case 18-184, Document 268, 08/20/2020, 2913226, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 20th day of August, two thousand twenty,
Before:

Pierre N. Leval,
Rosemary S. Pooler,
Barrington D. Parker,
Circuit Judges

United States of America,

ORDER
Docket No. 18-181(L), 18-184(CON)

Appellee,

v.
Crystal Grote, AKA Crystal Cram, AKA Crystal CramGrote, AKA Crystal Stubbs,
Defendant,

Timothy Muir, Scott Tucker,
Defendants - Appellants.

Scott Tucker having filed a petition for panel rehearing and the panel that determined the
appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

27

Case 18-184, Document 282, 10/22/2020, 2958164, Page1 of 2

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of October, two thousand twenty.
BEFORE:

PIERREN. LEVAL,
ROSEMARY S. POOLER,
BARRINGTON D. PARKER,

Circuit Judges

UNITED STATES OF AMERICA,

Appellee,

ORDER
Nos. 18-181-cr(L),
18-184-cr(CON)

V.
CRYSTAL GROTE, AKA CRYSTAL CRAM, AKA
CRYSTAL CRAM-GROTE, AKA CRYSTAL STUBBS,

Defendant,
TIMOTHY MUIR, SCOTT TUCKER,

Defendants-Appellants.

Defendants Scott Tucker and Timothy Muir both petition for rehearing of
this court's judgment affirming their convictions. Tucker's petition was denied by
Order of August 20, 2020. Muir's petition was denied by Order of October 15,
2020. We comment briefly on one contention raised by both defendants.
The defendants assert that this court's opinion affirming their convictions
erred in applying the plain error standard to their argument relating to the jury
charge on willfulness. In ruling that the plain error standard was applicable, we
relied in part on the defendants ' failure to note their objection after the charge was
given ("before the jury retires to deliberate"), as required by Fed. R. Crim. P.
30(d). The defendants now argue that this ruling was error because it failed to note

28

Case 18-184, Document 282, 10/22/2020, 2958164, Page2 of 2

certain occasions on which defense counsel raised concerns about the proposed
jury charge on the state-of-mind element, including a letter the defendants
submitted to the court just prior to the charge, reiterating the argument they had
made at the charge conference.
These additional submissions to the trial judge prior to the charge do not
change our analysis. Most of them predated the charge conference discussed in our
opinion, pertained to earlier versions of the draft jury charge, and did not raise the
"specific [non-frivolous] objection" at issue on appeal, Fed. R. Crim. P. 30(d),
namely whether it was error for the district court to instruct the jury that
"willfulness" for the purposes of unlawful debt collection could be satisfied by
showing that the defendants "acted deliberately, with knowledge of the actual
interest rate charged on the loan[s]." Those earlier filings and conference
exchanges thus have no bearing on whether that "specific objection" was preserved
for appellate review.
The letter submitted by the defendants just prior to the charge, on the other
hand, did raise the specific argument at issue, but the fact of the reiteration of the
argument by letter does not change our conclusion. Our opinion rejected the
defendants' contention that objection subsequent to the charge should have been
excused on the ground of futility, because the court had expressed no definitive
view on the issue. The fact that the defendants submitted a letter just prior to the
charge, reiterating the argument, does not change that analysis. The court made no
comment whatsoever on the letter. The fact of its submission prior to the charge
does not support the defendants' argument that it would have been futile to "inform
the court of the specific objection and the grounds" for it following the charge, as
required by the rule.
The defendants' other asserted grounds for rehearing are also without merit.

For the Court:
Catherine O 'Hagan Wolfe
Clerk of Court

29

